APPENDIX

1a

APPENDIX A

UNITED STATES COURT OF APPEALS,
FIRST CIRCUIT.
C.D., BY AND THROUGH her Parents and Next
Friends, M.D. and P.D.; M.D.; P.D.,
Plaintiffs, Appellants,
v.
NATICK PUBLIC SCHOOL DISTRICT;
Bureau of Special Education Appeals,
Defendants, Appellees.
No. 18-1794
|
May 22, 2019
APPEAL FROM THE UNITED STATES DISTRICT
COURT
FOR
THE
DISTRICT
OF
MASSACHUSETTS,
[Hon. F. Dennis Saylor, IV, U.S. District Judge]
Opinion
LYNCH, Circuit Judge.
The Individuals with Disabilities Education Act
(IDEA) requires that students with certain disabilities
be provided a “[f]ree appropriate public education”

2a
(FAPE) in the “[l]east restrictive environment” (LRE)
appropriate for each student. 20 U.S.C. § 1412(a)(1),
(5). Under the IDEA and Massachusetts law, the
individualized education programs (IEPs) of certain
disabled students must also contain postsecondary
transition goals and services based on age-appropriate
assessments. Id. § 1414(d)(1)(A)(i)(VIII); Mass. Gen.
Laws ch. 71B, § 2.
Appellants are C.D., a resident of Natick,
Massachusetts, who qualified as a child with a
disability under the IDEA, and her parents. They
challenge this circuit’s prior interpretations of these
IDEA requirements as incomplete or as inconsistent
with the IDEA and current Supreme Court case law.
The parents seek reimbursement for at least three
years of C.D.’s education in a specialized private
school. Rejecting these challenges, we affirm the
district court, which upheld a decision of the
Massachusetts Bureau of Special Education Appeals
(BSEA) ruling that the Natick Public School District
(Natick) had complied with the FAPE, LRE, and
transition requirements in proposed IEPs for C.D. See
C.D. v. Natick Pub. Sch. Dist. (C.D. II), No. 15-13617FDS, 2018 WL 3510291, at *1 (D. Mass. July 20, 2018);
C.D. v. Natick Pub. Sch. Dist. (C.D. I), No. 15-13617FDS, 2017 WL 3122654, at *1 (D. Mass. July 21, 2017).
I.
The IDEA offers states federal funds for the
education of children with disabilities in exchange for
the states’ commitments to comply with the IDEA’s
directives, including its FAPE and LRE requirements.
See Arlington Cent. Sch. Dist. Bd. of Educ. v. Murphy,

3a
548 U.S. 291, 295, 126 S.Ct. 2455, 165 L.Ed.2d 526
(2006).
A FAPE “comprises ‘special education and related
services’—both ‘instruction’ tailored to meet a child’s
‘unique needs’ and sufficient ‘supportive services’ to
permit the child to benefit from that instruction.” Fry
v. Napoleon Cmty. Sch.,—U.S.—, 137 S. Ct. 743,
748–49, 197 L.Ed.2d 46 (2017) (quoting 20 U.S.C.
§ 1401(9), (26), (29)). “The primary vehicle for delivery
of a FAPE is an IEP.” D.B. ex rel. Elizabeth B. v.
Esposito, 675 F.3d 26, 34 (1st Cir. 2012) (internal
quotation marks omitted). IEPs are “comprehensive
plan[s]” that are developed by the child’s “IEP Team
(which includes teachers, school officials, and the
child’s parents)” and that “must be drafted in
compliance with a detailed set of procedures.” Endrew
F. v. Douglas Cty. Sch. Dist. RE-1,—U.S.—, 137 S. Ct.
988, 994, 197 L.Ed.2d 335 (2017) (internal quotation
marks omitted). Under the Supreme Court’s recent
decision in Endrew F v. Douglas County School
District RE-1,—U.S.—, 137 S. Ct. 988, 197 L.Ed.2d
335 (2017), the services offered in an IEP amount to a
FAPE if they are “reasonably calculated to enable a
child to make progress appropriate in light of the
child’s circumstances.” Id. at 1001.
The IDEA also requires states receiving federal
funds to educate disabled children in the “[l]east
restrictive environment” appropriate for each child.
20 U.S.C. § 1412(a)(5). The statute mandates at
§ 1412(a)(5)(A):
To the maximum extent appropriate, children
with disabilities ... are educated with children
who are not disabled, and special classes,

4a
separate schooling, or other removal of children
with disabilities from the regular educational
environment occurs only when the nature or
severity of the disability of a child is such that
education in regular classes with the use of
supplementary aids and services cannot be
achieved satisfactorily.
Id. The Supreme Court has characterized this LRE
mandate as embodying a “preference” for
“mainstreaming” students with disabilities in “the
regular classrooms of a public school system.” Bd. of
Educ. v. Rowley, 458 U.S. 176, 202–03, 102 S.Ct. 3034,
73 L.Ed.2d 690 (1982); see also Endrew F., 137 S. Ct.
at 999 (“[T]he IDEA requires that children with
disabilities receive education in the regular classroom
‘whenever possible’ ” (quoting Rowley, 458 U.S. at 202,
102 S.Ct. 3034)). But the IDEA’s preference for
mainstreaming “is not absolute.” T.M. ex rel. A.M. v.
Cornwall Cent. Sch. Dist., 752 F.3d 145, 162 (2d Cir.
2014); see also Rowley, 458 U.S. at 197 n.21, 102 S.Ct.
3034 (“The Act’s use of the word ‘appropriate’ ...
reflect[s] Congress’ recognition that some settings
simply are not suitable environments for ... some
handicapped children.”). Instead, as we explained in
Roland M. v. Concord School Committee, 910 F.2d 983
(1st Cir. 1990), “the desirability of mainstreaming
must be weighed in concert with the Act’s mandate for
educational improvement.”1 Id. at 993.

1

Roland M. interpreted the IDEA’s predecessor statute, see
910 F.2d at 987, but the text of the provision at issue has not
changed, compare Education for All Handicapped Children Act of
1975, Pub. L. No. 94-142 § 612(5), 89 Stat. 733, 781 (1975), with
20 U.S.C. § 1412(a)(5)(A).

5a
The final IDEA requirement at issue here is the
instruction at § 1414(d)(1)(A)(i)(VIII) that certain
students’ IEPs “include[ ] ... appropriate measurable
postsecondary goals based upon age appropriate
transition assessments related to training, education,
employment, and ... independent living skills” along
with “the transition services (including courses of
study) needed to assist the child in reaching those
goals.” 20 U.S.C. § 1414(d)(1)(A)(i)(VIII)(aa)–(bb).
Massachusetts
has
made
these
transition
requirements applicable starting at age fourteen. See
Mass. Gen. Laws ch. 71B, § 2; see also 20 U.S.C.
§ 1414(d)(1)(A)(i)(VIII) (making this requirement
applicable “beginning not later than the first IEP to be
in effect when the child is 16”). Because C.D. was
fourteen or older when the IEPs at issue were
proposed, these requirements applied.
II.
C.D. has borderline intellectual functioning and
significant deficits in language ability. She attended
public school in Natick through fifth grade. For
middle school, she attended McAuliffe Regional
Charter
Public
School
in
Framingham,
Massachusetts, where she took all of her classes
except math in a regular classroom setting. To assist
C.D., two private tutors hired by C.D.’s parents
attended C.D.’s middle school classes with her.
The summer before C.D. entered high school, her
parents worked with Natick to develop an IEP for
C.D.’s ninth grade year at Natick High School. C.D.’s
parents wanted C.D. to continue her education in a
regular classroom setting, with the help of the same
private tutors. School officials explained that only

6a
Natick employees were allowed to teach or tutor
students in Natick’s classrooms.
Natick was concerned that larger class sizes and
more advanced content in high school would make it
difficult for C.D. to access the general education
curriculum. It considered placing C.D. in replacement
classes in which a modified general education
curriculum is taught by a special education teacher.
Ultimately, Natick, in its proposed IEP, chose a third
option.
The school presented C.D.’s parents with a proposed
ninth grade IEP, for the 2012–2013 school year, that
placed C.D. in regular classrooms for her elective
courses but in a setting called the ACCESS Program
for her academic courses. The ACCESS Program is a
self-contained special education program located at
Natick High School and designed for students who,
like C.D., have cognitive and communication deficits.
ACCESS offers a significantly modified curriculum,
and its students typically earn certificates rather than
high school diplomas.
C.D.’s parents rejected the IEP, saying that the
ACCESS Program was an overly “restricted
environment” and that C.D.’s placement there would
“hinder” her academic and social growth. They
enrolled C.D. at Learning Prep School, a private school
that specializes in educating students with
disabilities.
The summer before C.D. was to enter tenth grade,
Natick presented to C.D.’s parents an IEP for the
2013–2014 school year that again placed C.D. in the
ACCESS Program for her academic classes. C.D.’s

7a
parents again rejected the IEP, giving the same
reasons, and enrolled C.D. at Learning Prep.
Before the next school year, the IEP Team
reconvened, this time with the benefit of a fresh set of
assessments of C.D. Based on these assessments and
on reports of C.D.’s progress at Learning Prep, Natick
proposed a new IEP for the 2014–2015 school year that
placed C.D. in a mix of ACCESS classes, replacement
classes, and general education classes. C.D.’s parents
rejected this IEP for two reasons. As they saw it, the
proposed schedule left inadequate time for speech and
language services. In addition, Natick had not yet
conducted a formal postsecondary transition
assessment. As to C.D.’s postsecondary transition, the
2012–2013, 2013–2014, and initial 2014–2015 IEPs
had stated the parents’ goal that C.D. graduate from
high school and had provided transition and
vocational services from the school’s learning center.
Natick then performed a formal transition
assessment and presented a revised 2014–2015 IEP.
This final IEP proposed the same mix of classes, but
extended C.D.’s school day to allow for speech and
language therapy as well as career preparation
services. C.D.’s parents rejected this IEP, and C.D.
attended Learning Prep for the 2014–2015 school
year.
In 2014, C.D.’s parents filed a complaint with the
BSEA seeking reimbursement for C.D.’s tuition at
Learning Prep. To qualify for reimbursement, the
parents had to show that Natick’s IEPs for 2012–2013,
2013–2014, and 2014–2015 “had not made a free

8a
appropriate public education available.”2
See
20 U.S.C. § 1412(a)(10)(C)(ii). After a hearing in May
2015, a BSEA Hearing Officer denied the parents’
request for reimbursement. The Hearing Officer
concluded that the IEPs were “reasonably calculated
to provide [C.D.] with a free appropriate public
education in the least restrictive environment.” And
the Hearing Officer found that the facts and testimony
presented did not support the parents’ arguments that
the transition assessments and plans were
inadequate.3
C.D.’s parents sought review of the BSEA’s decision
in federal district court. The district court denied the
parents’ motion for summary judgment and their
supplemental motion for summary judgment. See
C.D. I, 2017 WL 3122654, at *26; C.D. II, 2018 WL
3510291, at *4. Giving “due weight” to the decision of
the BSEA, C.D. I, 2017 WL 3122654, at *15, the
district court made three relevant rulings. First,
because Endrew F. had been decided while the
parents’ motion for summary judgment was pending,
the district court verified that the Hearing Officer had

2

The transition planning and transition assessment
requirements are procedural. Only certain procedural flaws,
such as those that result in the denial of a FAPE or “a deprivation
of educational benefits,” are actionable under the IDEA.
20 U.S.C. § 1415(f)(3)(E)(ii); see also, e.g., R.E. v. N.Y.C. Dep’t of
Educ., 694 F.3d 167, 195 (2d Cir. 2012) (applying this harmless
error principle to a claimed violation of the transition
requirements).
3

The Hearing Officer also rejected other arguments not
presented on appeal.

9a
applied a FAPE standard consistent with Endrew F.4
Id. at *16 (“[T]he standard articulated in Endrew F. is
not materially different from the standard set forth in”
the First Circuit’s prior cases and “applied by the
hearing officer.”). Second, the district court found it
“unclear” whether the BSEA’s decision had followed
the First Circuit’s prior cases on the LRE mandate. Id.
at *19. And so the district court remanded to the
BSEA to determine whether the 2012–2013 and 2013–
2014 IEPs, which proposed to place C.D. in the
ACCESS Program for her academic courses, had
provided a FAPE in the LRE. After the BSEA
responded with a clarification order, the district court
concluded that “based on the preponderance of the
evidence, the BSEA hearing officer appropriately
found that the district balanced the benefits of
mainstreaming against the restrictions associated
with the [ACCESS] classes, and that the ... IEPs were
reasonably calculated to provide a FAPE in the least
restrictive environment possible.” C.D. II, 2018 WL
3510291, at *4. Third, the district court agreed with
the BSEA that the 2012–2013, 2013–2014, and the
final 2014–20155 IEPs complied with the IDEA’s
transition planning and assessment requirements.
C.D. I, 2017 WL 3122654, at *19, *21.

4

The district court first remanded in part to the BSEA for the
Hearing Officer to confirm that she had applied a standard
consistent with Endrew F.
5

The district court held that any challenges to the initial
2014–2015 IEP were mooted by that IEP’s replacement with the
final 2014–2015 IEP. C.D. I, 2017 WL 3122654, at *21.

10a
III.
C.D.’s parents now argue that the district court
applied the wrong legal standards. They say first that
Endrew F. defined “progress appropriate” as
“appropriately ambitious” and “challenging” so that
the district court was required to ask, in evaluating
whether a FAPE was offered, whether the IEPs
contained sufficiently “challenging objectives.”
Endrew F., 137 S. Ct. at 1000. Next, the parents urge
us to adopt, and contend that the district court should
have applied, a multi-part test from Daniel R.R. v.
State Board of Education, 874 F.2d 1036 (5th Cir.
1989), to evaluate whether the IEPs placed C.D. in an
overly restrictive environment. Finally, C.D.’s parents
argue that the district court ignored the plain
language of the IDEA’s transition planning and
assessment requirements.
Our review of the district court on these legal issues
is de novo. See Johnson v. Bos. Pub. Sch., 906 F.3d
182, 191 (1st Cir. 2018). We hold that the district court
properly applied this circuit’s standards and that
those standards are consistent with Endrew F. and
with the IDEA. The parents also raise alternative
arguments that the district court erred in applying law
to fact, and we review these fact-dominated rulings
deferentially. Id. (quoting Doe v. Cape Elizabeth Sch.
Dist., 832 F.3d 69, 76 (1st Cir. 2016)). Finding no
errors, we affirm.
A.
Until Endrew F., the Supreme Court had
“declined ... to endorse any one standard for
determining” whether the services offered in a
student’s IEP amounted to a FAPE. Endrew F., 137 S.

11a
Ct. at 993. This circuit, along with several others, said
that to offer a FAPE, an IEP must be “individually
designed” and “reasonably calculated to confer a
meaningful educational benefit.” D.B., 675 F.3d at 34–
35 (citing D.S. v. Bayonne Bd. of Educ., 602 F.3d 553,
557 (3d Cir. 2010), then citing D.F. ex rel. N.F. v.
Ramapo Cent. Sch. Dist., 430 F.3d 595, 598 (2d Cir.
2005), and then citing Deal v. Hamilton Cty. Bd. of
Educ., 392 F.3d 840, 862 (6th Cir. 2004)). After
Endrew F., this court confirmed, in Johnson v. Boston
Public Schools, 906 F.3d 182 (1st Cir. 2018), that this
“meaningful educational benefit” standard for
evaluating whether an IEP offers a FAPE “comports”
with the standard “dictated by Endrew F.”6 Id. at 194–
95.
C.D.’s parents say that our Johnson decision
restricted its view to Endrew F.’s language about
“progress appropriate in light of the child’s
circumstances,” Endrew F., 137 S. Ct. at 1001, and
that we have yet to examine language in Endrew F.
about “ambitious” and “challenging” goals, id. at 1000.
On the parents’ reading, after Endrew F., courts must
ask not only whether an IEP offers meaningful
educational progress, but also, separately, whether
the IEP’s objectives are ambitious and challenging.

6 Other circuits that use a “meaningful benefit” standard have
held the same. See L.H. v. Hamilton Cty. Dep’t of Educ., 900 F.3d
779, 792 n.5 (6th Cir. 2018); Mr. P. v. W. Hartford Bd. of Educ.,
885 F.3d 735, 757 (2d Cir.), cert. denied sub nom. Mr. P. v. W.
Hartford Bd. of Educ.,—U.S.—, 139 S. Ct. 322, 202 L.Ed.2d 219
(2018); K.D. ex rel. Dunn v. Downingtown Area Sch. Dist., 904
F.3d 248, 254 (3d Cir. 2018).

12a
The parents misread Endrew F., which did not
construe the FAPE standard as two independent tests.
That decision’s core holding was that the “merely more
than de minimis” educational benefit standard that
had been used by the appellate court to evaluate
Endrew’s IEPs was insufficiently “demanding.” Id. at
1000–01; see also id. at 997 (quoting Endrew F. ex rel.
Joseph F. v. Douglas Cty. Sch. Dist. RE-1, 798 F.3d
1329, 1338 (10th Cir. 2015)). Endrew F. defined a
FAPE—”an
educational
program
reasonably
calculated to enable a child to make progress
appropriate in light of the child’s circumstances,” id.
at 1001—in contrast to this rejected, “de minimis”
standard. It was in this context that the Supreme
Court employed the terms “ambitious” and
“challenging.” The Court explained that, for many
children with disabilities integrated into “the regular
classroom,” an “appropriately ambitious” goal is
“advancement from grade to grade.” Id. at 1000. And
the Court stated that, for those “not fully integrated in
the regular classroom,” the particular “goals may
differ, but every child should have the chance to meet
challenging objectives.” Id. In short, Endrew F. used
terms
like
“demanding,”
“challenging,”
and
“ambitious” to define “progress appropriate in light of
the child’s circumstances,” not to announce a separate
dimension of the FAPE requirement. Id. at 1000–01;
cf. R.F. v. Cecil Cty. Pub. Sch., 919 F.3d 237, 252 (4th
Cir. 2019) (defining adequate progress and
“challenging objectives” under Endrew F.).
Under both Endrew F. and our precedent, a court
evaluating whether an IEP offers a FAPE must
determine whether the IEP was reasonably calculated
to confer a meaningful educational benefit in light of

13a
the child’s circumstances. See Johnson, 906 F.3d at
195; cf. K.D. ex rel. Dunn v. Downingtown Area Sch.
Dist., 904 F.3d 248, 256 (3d Cir. 2018) (equating
meaningful progress and challenging objectives).
Depending on context, determining whether an IEP is
reasonably calculated to offer meaningful progress
may or may not require a sub-inquiry into how
challenging the plan is. Here, the district court did
just what Endrew F. and Johnson require in affirming
the BSEA’s conclusion that the 2012–2013 and 2013–
2014 IEPs offered a FAPE.7 See C.D. I, 2017 WL
3122654, at *16 (describing the standard applied by
the BSEA); C.D. II, 2018 WL 3510291, at *4 (affirming
the BSEA’s FAPE conclusion).
The district court also did not err in applying that
standard to the facts in the record. The parents
maintain that C.D. would not have made appropriate
progress in the ACCESS Program, but the district
court reasonably concluded that the record supported
the BSEA’s finding that C.D., given her diagnosed
intellectual disability and serious language deficits,
could be expected to make meaningful progress in the
ACCESS program and general education electives.
See C.D. II, 2018 WL 3510291, at *3–4.
B.
C.D.’s parents argue next that the 2012–2013 and
2013–2014 IEPs violated the LRE mandate by
proposing to place C.D. in the ACCESS Program,
which the parents view as overly restrictive. They
7

C.D.’s parents argue that, in evaluating the 2012–2013 and
2013–2014 IEPs, the BSEA misapplied the First Circuit’s FAPE
standard by omitting the word “meaningful” from its analysis.
But the BSEA did not overlook that operative word.

14a
urge us to adopt, and argue that the district court
should have applied, the multi-step test from the Fifth
Circuit’s decision in Daniel R.R. to evaluate this
claim.8 See 874 F.2d at 1048–50. We reject both
arguments. Instead, we affirm the district court,
which properly relied on our decision in Roland M. in
ruling that the IEPs did not violate the LRE mandate.
Courts that use the Daniel R.R. methodology
evaluate compliance with the LRE mandate in two
steps, asking first “whether education in the regular
classroom, with the use of supplementary aids and
services, can be achieved satisfactorily,” and, if the
child cannot be educated in the regular classroom,
asking second “whether the school has mainstreamed
the child to the maximum extent appropriate.” Id. at
1048. In answering the first question, Daniel R.R.
instructs courts to consider whether the district has
made reasonable efforts to accommodate the child in a
regular classroom; the benefits, both academic and
non-academic, available to the child in a regular class
compared to the benefits, both academic and nonacademic, available in a more restricted class; and the
effects of inclusion on other children in the regular

8

Natick and the BSEA argue that C.D.’s parents waived their
argument based on Daniel R.R. by neglecting to “set forth [its]
multifactor test” before the district court. But we deem sufficient
the parents’ reliance on Daniel R.R. in the district court; the
parents’ motions cited to and the district court quoted from
Daniel R.R. See C.D. II, 2018 WL 3510291, at *3; see also
Rivera-Gomez v. de Castro, 843 F.2d 631, 635 (1st Cir. 1988)
(finding no waiver where “ the district court was not left ... to
ferret out an evanescent needle from an outsized paper
haystack”).

15a
classroom. Id. at 1048–49; see also Oberti by Oberti v.
Bd. of Educ., 995 F.2d 1204, 1217–18 (3d Cir. 1993).
The parents frame their claim as presenting the
following question, which they say is one of first
impression in this circuit: When does a school’s
decision to educate a child with disabilities in a setting
other than the regular classroom violate the IDEA’s
LRE mandate? Several other circuits, the parents
observe, have used the Daniel R.R. test to evaluate
parents’ claims that their children should be
mainstreamed.9 See Oberti, 995 F.2d at 1216–17;
T.M., 752 F.3d at 161–62; L.B. ex rel. K.B. v. Nebo Sch.
Dist., 379 F.3d 966, 976–77 (10th Cir. 2004);
Sacramento City Unified Sch. Dist. v. Rachel H. ex rel.
Holland, 14 F.3d 1398, 1400–01 (9th Cir. 1994). The
parents’ premise is incorrect. There is no ground for
distinguishing our prior cases, like Roland M.,
involving parents who sought a more restrictive
placement than the one proposed in the IEP.10 Those
cases and this one in fact present the same question:

9 The Fourth and Eighth Circuits have applied the Sixth
Circuit’s test from Roncker v. Walter, 700 F.2d 1058 (6th Cir.
1983), which asks “whether the services which make ... [an
alternative] placement superior could be feasibly provided in a
non-segregated setting.” Id. at 1063; see also DeVries v. Fairfax
Cty. Sch. Bd., 882 F.2d 876, 878–79 (4th Cir. 1989); A.W. v. Nw.
R-1 Sch. Dist., 813 F.2d 158, 163 (8th Cir. 1987).
10

See, e.g., C.G. ex rel. A.S. v. Five Town Cmty. Sch. Dist., 513
F3d279, 287 (1st Cir. 2008) (holding that the district court
“supportably concluded” that public school day placement rather
than residential placement requested by parents was least
restrictive environment appropriate); Roland M., 910 F.2d at 993;
Abrahamson v. Hershman, 701 F.2d 223, 229–30 (1st Cir. 1983).

16a
Did the IEP’s proposed placement violate the IDEA’s
LRE mandate?
The text of § 1412(a)(5)(A) and prior precedent
provide the guidance we need to evaluate whether
Natick complied with the LRE mandate here. In
eschewing the Daniel R.R. test because “[t]he Act itself
provides enough of a framework,” we join the Seventh
Circuit. See Beth B. v. Van Clay, 282 F.3d 493, 499
(7th Cir. 2002) (declining to adopt the Daniel R.R.
test).
C.D.’s parents argue that the Daniel R.R. test adds
needed “complexity” to the statute’s terms. But
determining an appropriate placement for a disabled
child is already a complex task. It is one that “involves
choices among educational policies and theories—
choices which courts, relatively speaking, are poorly
equipped to make.” Roland M., 910 F.2d at 992; see
also C.G. ex rel. A.S. v. Five Town Cmty. Sch. Dist., 513
F.3d 279, 289 (1st Cir. 2008) (acknowledging “the
truism that courts should recognize the expertise of
educators with respect to the efficacy of educational
programs”). That is why the IDEA “vests” state and
school “officials with responsibility for” choosing a
child’s placement. Endrew F., 137 S. Ct. at 1001. And
it is why courts owe respect and deference to the
expert decisions of school officials and state
administrative
boards.
See
Lessard
v.
Wilton-Lyndeborough Coop. Sch. Dist. (Lessard II),
592 F.3d 267, 270 (1st Cir. 2010) (“The standard of
review is thus deferential to the educational
authorities, who have ‘primary responsibility for
formulating the education to be accorded a
handicapped child, and for choosing the educational
method most suitable to the child’s needs.’ ” (quoting

17a
Rowley, 458 U.S. at 207, 102 S.Ct. 3034)). There is no
need to add complexity to the LRE mandate in the
form of Daniel R.R.’s judicial gloss, and every reason
not to do so.
We proceed to review the district court’s decision
under § 1412(a)(5)(A) and our cases interpreting it.
Again, the IDEA mandates, at § 1412(a)(5)(A):
To the maximum extent appropriate, children
with disabilities ... are educated with children
who are not disabled, and special classes,
separate schooling, or other removal of children
with disabilities from the regular educational
environment occurs only when the nature or
severity of the disability of a child is such that
education in regular classes with the use of
supplementary aids and services cannot be
achieved satisfactorily.
20 U.S.C. § 1412(a)(5)(A). Our cases have “weighed”
this preference for mainstreaming “in concert with
the” FAPE mandate. Roland M., 910 F.2d at 992–93.
The two requirements “operate in tandem to create a
continuum” of possible educational environments,
each offering a different mix of benefits (and costs) for
a student’s academic, as well as social and emotional,
progress.11 Id. For schools, complying with the two
mandates means evaluating potential placements’
“marginal benefits” and costs and choosing a
placement that strikes an appropriate balance
11

We have recognized that educating students with
disabilities with their nondisabled peers can have benefits for
disabled students’ social and communication skills. See Lenn v.
Portland Sch. Comm., 998 F.2d 1083, 1090 & n.7 (1st Cir. 1993)
(citing Oberti, 995 F.2d at 1216–17).

18a
between the restrictiveness of the placement and
educational progress. Id.; see also Amann v. Stow Sch.
Sys., 982 F.2d 644, 650 (1st Cir. 1992) (per curiam)
(phrasing the question as whether the “IEP
‘reasonably calculated’ the balance between academic
progress and” restrictiveness).
The district court correctly identified this legal
framework. Quoting Roland M., the district court
explained that “ ‘[m]ainstreaming may not be ignored,
even to fulfill substantive educational criteria.’
Rather, the benefits to be gained from mainstreaming
must be weighed against the educational
improvements that could be attained in a more
restrictive (that is, non-mainstream) environment.”12
C.D. II, 2018 WL 3510291, at *3 (internal citation
omitted) (quoting Roland M., 910 F.2d at 993).
The parents argue, again relying on applications of
Daniel R.R., that the district court erred in failing to
ask whether C.D. could have been educated in the
regular classroom considering “the whole range of
supplemental aids and services.” Oberti, 995 F.2d at
1216. The record belies this contention. The district
court here verified that Natick and the BSEA had
considered “the nature and severity” of C.D.’s
disability as well as the impact of “supplementary aids
and services.” 20 U.S.C. § 1412(a)(5)(A). It noted that
the BSEA and Natick had both examined three
potential placements:
the regular classroom,
12

The parents argue that the district court “erred where it did
not even articulate the need to balance non-academic benefits
against the putative academic advantages of a substantially
separate classroom.” But the district court properly understood
the balancing inquiry outlined in Roland M.

19a
replacement classes, and the ACCESS Program.
C.D. II, 2018 WL 3510291, at *3. Then the district
court found that evidence supported the BSEA’s and
Natick’s conclusion that the ACCESS Program was
appropriate because of C.D.’s particular disability—an
“intellectual disability in conjunction with weaknesses
in receptive and expressive language.”13 Id. (internal
quotation marks omitted).
We see no error in the district court’s appropriately
deferential analysis. As we have emphasized, the
IDEA vests state and local educational officials, not
federal courts, with the primary responsibility to make
placement decisions consistent with § 1412(a)(5)(A).
C.
C.D.’s parents next argue that the district court
ignored the plain language of the IDEA in affirming
the BSEA’s ruling that the IEPs complied with the
statute’s transition provision. Not so.
We have previously held that the IDEA “does not
require a stand-alone transition plan.” Lessard v.
Wilton Lyndeborough Coop. Sch. Dist. (Lessard I), 518
F.3d 18, 24 (1st Cir. 2008). Nor does the statute
require that the underlying transition assessments
take a particular form.
See 20 U.S.C.
§ 1414(d)(1)(A)(i)(VIII). Indeed, there is no restriction
on the means of gathering information about a
student’s interests or abilities that may be relevant to
the development of postsecondary transition goals.

13

C.D.’s parents’ dispute of a related factual finding made by
the BSEA in its initial ruling on the LRE issue is misplaced. The
district court ultimately reviewed the facts as clarified by the
BSEA.

20a
See, e.g., Mass. Dep’t of Elementary & Secondary
Educ., Transitional Assessment in the Secondary
Transition Planning Process, Technical Advisory
SPED 2014-4, at 1–3 (Apr. 9, 2014) (declining to adopt
“a restrictive approach which might seem to imply the
required use of highly specialized formal assessments
for each student”).
The district court did not err in articulating or
applying these transition requirements. It discussed
the statute’s assessment and planning dimensions, it
cited repeatedly to Massachusetts’ guidance
implementing the federal provision, and it relied on
case law correctly applying the transition
requirement. See C.D. I, 2017 WL 3122654, at *19,
*21 (citing Sebastian M. v. King Philip Reg’l Sch. Dist.,
774 F. Supp. 2d 393, 407 (D. Mass. 2011), aff’d, 685
F.3d 79 (1st Cir. 2012)).
The district court then reasonably applied those
rules in affirming the BSEA’s ruling. The IEPs stated
grade-appropriate goals and services designed to
prepare C.D. for the post-secondary transition.14 See
Lessard I, 518 F.3d at 25; see also, e.g., Rodrigues v.
Fort Lee Bd. of Educ., 458 F. App’x 124, 128 (3d Cir.
14

Specifically, C.D.’s 2012–2013 IEP stated that C.D.’s
parents hoped she would receive a high school diploma and
vocational training. The IEP outlined educational goals and
services that would have helped C.D. make progress toward that
diploma, and it also provided for vocational services from the
school’s learning center. The 2013–2014 IEP was similar, and it
added opportunities to meet with the school’s guidance counselor
and career specialist to discuss post-secondary plans. The final
2014–2015 IEP further proposed educational and vocational
services and set out specific goals related to job readiness, job
coaching, and independent living.

21a
2011) (finding adequate an IEP that listed a transition
goal and noted available services). And the 2012–2013
and 2013–2014 plans reflected and were developed
based on a transition-specific discussion at the 2012–
2013 IEP meeting and on extensive educational and
psychological evaluations done of C.D. and provided to
Natick as part of the IEP development process. The
final 2014–2015 IEP reflected and was based on
assessments like these as well as a formal transition
assessment. All three IEPs contained “appropriate
measurable postsecondary goals based upon age
appropriate
assessments.”
20 U.S.C.
§ 1414(d)(1)(A)(i)(VIII)(aa).
IV.
Affirmed.

22a

APPENDIX B

UNITED STATES DISTRICT COURT,
D. MASSACHUSETTS.
C.D., BY AND THROUGH her parents and next
friends, M.D. and P.D.,
Plaintiffs,
v.
NATICK PUBLIC SCHOOL DISTRICT and Bureau
of Special Education Appeals,
Defendants.
Civil Action No. 15-13617-FDS
|
Signed 07/20/2018
ORDER ON ENTRY OF JUDGMENT
SAYLOR, J.
On July 20, 2018, the Court denied plaintiffs’
motion for supplemental summary judgment.
Although defendants did not formally move for
summary judgment, because the matter was “in
substance an appeal from [the BSEA],” it appears that
there are no further matters for the Court to resolve.
North Reading Sch. Comm. v. BSEA, 480 F. Supp. 2d
479, 480 n.1 (citations and internal quotation marks
omitted).

23a
Accordingly, the clerk is hereby directed to enter
judgment for defendants. The parties, for good cause
shown, may move to reopen this matter within 14
days, or by August 3, 2018.
So Ordered.
Dated: July 20, 2018

/s/ F. Dennis Saylor
F. Dennis Saylor IV
United States District
Judge

24a

APPENDIX C

UNITED STATES DISTRICT COURT,
D. MASSACHUSETTS.
C.D., BY AND THROUGH her parents and next
friends, M.D. and P.D.,
Plaintiffs,
v.
NATICK PUBLIC SCHOOL DISTRICT and Bureau
of Special Education Appeals,
Defendants.
Civil Action No. 15-13617-FDS
|
Signed 07/20/2018
MEMORANDUM AND ORDER ON
PLAINTIFFS’ SUPPLEMENTAL MOTION FOR
SUMMARY JUDGMENT
F. Dennis Saylor IV, United States District Judge
This dispute arises out of an administrative decision
by the Massachusetts Bureau of Special Education
(“BSEA”)
concerning
individualized
education
programs (“IEPs”) proposed by the Natick School
District. The BSEA found that the IEPs were
adequate to provide C.D., a student with learning
disabilities, with a free appropriate public education

25a
(“FAPE”), as required under the Individuals with
Disabilities Education Act (“IDEA”), and denied
tuition reimbursement for her placement in a private
school. C.D. and her parents then brought suit against
the School District and the BSEA seeking to overturn
the BSEA’s decision.
On July 21, 2017, the Court denied plaintiffs’
motion for summary judgment but remanded the case
in part to the BSEA to determine whether the 2012–
13 and 2013–14 school year IEPs provided a FAPE in
the least restrictive environment possible. The BSEA
issued its order on March 22, 2018, concluding that
the IEPs were reasonably calculated to provide a
FAPE in the least restrictive environment.
Plaintiffs have since moved for supplemental
summary judgment to reverse that order. For the
reasons stated below, the motion will be denied.
I. Background
The factual background, statutory framework, and
procedural history of this matter are set forth in the
Court’s earlier memorandum and order dated July 21,
2017. See C.D. by & through M.D. v. Natick Pub. Sch.
Dist., 2017 WL 3122654 (D. Mass. July 21, 2017). For
brevity’s sake, the Court will not repeat that history
here.
That order denied plaintiffs’ motion for
summary judgment and remanded the matter in part
to the BSEA to determine whether the 2012–13 and
2013–14 IEPs provided a FAPE in the least restrictive
environment possible.
On March 22, 2018, the hearing officer issued an
order affirming her previous opinion, stating that
Natick had rationally balanced the benefits of
mainstreaming against the restrictions associated

26a
with the Access classes.
(See generally Docket
No. 87).1 She concluded that the 2012–13 and 2013–
14 IEPs proposed by Natick were “reasonably
calculated to provide [C.D.] with a free appropriate
public education in the least restrictive environment.”
(Id. at 3).
II. Legal Standard
Plaintiffs have moved for supplemental summary
judgment on their challenge to the BSEA’s
conclusions. However, “[i]n a case like this, summary
judgment is merely the device for deciding the issue,
because the procedure is in substance an appeal from
an administrative determination, not a summary
judgment.” North Reading Sch. Comm. v. BSEA, 480
F. Supp. 2d 479, 480 n.1 (citations and internal
quotation marks omitted). The burden of proof rests
on the party challenging the hearing officer’s decision.
Hampton Sch. Dist. v. Dobrowolski, 976 F.2d 48, 54
(1st Cir. 1992).
Essentially, “judicial review [of administrative
decisions on claims brought under the IDEA] falls
somewhere between the highly deferential clear-error
standard and the non-deferential de novo standard.”
Lessard v. Wilton-Lyndeborough Coop. Sch. Dist., 518
F.3d 18, 24 (1st Cir. 2008) (citing Roland M. v. Concord
Sch. Comm., 910 F.2d 983, 989 (1st Cir. 1990) ). The
IDEA provides that courts reviewing agency decisions
“(i) shall receive the records of the administrative
1

The Access Program is separate from the general education
classrooms within Natick High School. In the Access Program,
students “receive a vocational and life centered educational
approach using the [Massachusetts] Curriculum Frameworks
entry point levels for High School.” (A.R. 4148–4151).

27a
proceeding; (ii) shall hear additional evidence at the
request of a party; and (iii) basing its decision on the
preponderance of the evidence, shall grant such relief
as the court determines is appropriate.” 20 U.S.C.
§ 1415(i)(2)(C). The Supreme Court has explained
that a district court’s review entails both procedural
and substantive aspects. Board of Educ. v. Rowley,
458 U.S. 176, 205 (1982) (“When the elaborate and
highly specific procedural safeguards embodied in
§ 1415 are contrasted with the general and somewhat
imprecise substantive admonitions contained in the
Act, we think that the importance Congress attached
to these procedural safeguards cannot be gainsaid.”).
Thus, in reviewing the appropriateness of an IEP, a
court “must ask two questions: ‘First, has the State
complied with the procedures set forth in the Act? And
second, is the individualized educational program
developed through the Act’s procedures reasonably
calculated to enable the child to receive educational
benefits?’ ” Roland M., 910 F.2d at 990 (quoting
Rowley, 458 U.S. at 206–07).
A reviewing court must ensure that the school
district and state education agency adhere
scrupulously to the procedural requirements of the
statute and relevant regulations and rules. See
Rowley, 458 U.S. at 206 (noting that the Act
“demonstrates the legislative conviction that adequate
compliance with the procedures prescribed would in
most cases assure much if not all of what Congress
wished in the way of substantive content in an IEP.”).
However, in reviewing an agency’s substantive
decisions on FAPEs and IEPs, a reviewing court’s
“principal function is one of involved oversight.”
Roland M., 910 F.2d at 989. “[C]ourts should be loathe

28a
to intrude very far into interstitial details or to become
embroiled in captious disputes as to the precise
efficacy of different instructional programs.” Id. at
992; see also Lt. T.B. ex rel. N.B. v. Warwick Sch.
Comm., 361 F.3d 80, 83 (1st Cir. 2004) (“The Rowley
standard recognizes that courts are ill-equipped to
second-guess reasonable choices that school districts
have made among appropriate instructional
methods.”). Nonetheless, it is the reviewing court’s
role to render “an independent ruling as to the IEP’s
adequacy based on a preponderance of all the
evidence, including the hearing officer’s duly weighted
findings.” Lenn v. Portland Sch. Comm., 998 F.2d
1083, 1089 (1st Cir. 1993).
In short, on matters that implicate educational
expertise, heightened deference is due to an agency’s
administrative findings. Mr. I v. Maine Sch. Admin.
Dist. No. 55, 416 F. Supp. 2d 147, 156 (D. Me. 2006).
However, “when the issue is more a matter of law, the
educational expertise of the agency is not implicated,
and less deference is required.” Id. at 157.
As to the evidence, the administrative process is to
be accorded “its due weight” such that “judicial review
does not become a trial de novo, thereby rendering the
administrative hearing nugatory.” Roland M. at 996.
The First Circuit has directed district courts reviewing
appeals of administrative decisions under the IDEA to
review[ ] the administrative record, which may
be supplemented by additional evidence from the
parties, and make[ ] an independent ruling based
on the preponderance of the evidence. That
independence is tempered by the requirement
that the court give due weight to the hearing

29a
officer’s findings. This intermediate level of
review reflects the concern that courts not
substitute their own notions of educational policy
for that of the state agency, which has greater
expertise in the educational arena.
Lt. T.B., 361 F.3d at 83–84 (citations and internal
quotation marks omitted).
Finally, an IEP should not be judged exclusively in
hindsight. “An IEP is a snapshot, not a retrospective.
In striving for ‘appropriateness,’ an IEP must take into
account what was, and was not, objectively reasonable
when the snapshot was taken, that is, at the time the
IEP was promulgated.” Roland M., 910 F.2d at 992.
III. Analysis
Plaintiffs’ challenge is to the adequacy of the 2012–
13 and 2013–14 IEPs. Because the 2013–14 IEP was
created pursuant to the same information that was the
basis for the 2012–13 IEP, the Court will address them
together.
On partial remand, this Court ordered the hearing
officer to “consider, or at a minimum clarify, whether
the 2012–13 [and 2013–14 IEPs were] reasonably
calculated to provide a FAPE in the ‘least restrictive’
environment possible.” C.D., 2017 WL 3122654, at
*19.
The IDEA’s requirement that students with
disabilities be educated in the “least restrictive
environment” means that “[m]ainstreaming may not
be ignored, even to fulfill substantive educational
criteria.” Roland M., 910 F.2d at 992–93. Rather, the
benefits to be gained from mainstreaming must be
weighed against the educational improvements that

30a
could be attained in a more restrictive (that is,
non-mainstream) environment. Id.
When a child’s unique needs cannot be met through
education in a regular classroom, “the presumption in
favor of mainstreaming is overcome and the school
need not place the child in regular education.” Daniel
R.R. v. State Bd. of Educ., 874 F.2d 1036, 1045 (5th
Cir. 1989); see also Abrahamson v. Hershman, 701
F.2d 223, 230 (1st Cir. 1983) (finding that “[t]he
placement is not to be made by mechanically choosing
the least restrictive environment; rather, the decision
must consider the child’s own needs.”).
Although the educational benefit of a FAPE need
not maximize a child’s potential, the state must,
however, “provide the child with personalized
instruction and sufficient support services to allow the
child to benefit educationally.” Gonzalez v. Puerto
Rico Dep’t of Educ., 969 F. Supp. 801, 807 (D.P.R.
1997).
Accordingly, although mainstreaming is
required under the Act whenever possible, it is
unwarranted when placement in a mainstream
general education classroom would result in a child
simply “monitoring” classes. DeVries by DeBlaay v.
Fairfax Cty. Sch. Bd., 882 F.2d 876, 879 (4th Cir. 1989)
(finding mainstreaming inappropriate when disability
“would make it difficult for [the child] to bridge the
‘disparity in cognitive levels’ between him and the
other students” because “he would glean little from the
lectures, and his individualized work would be at a
much lower level than his classmates.”).
In her clarification order, the hearing officer found
that the 2012–2013 and 2013–2014 IEPs “[were]
reasonably calculated to provide [plaintiff] with a free

31a
appropriate public education in the least restrictive
environment.” (Docket No. 87 at 3). The hearing
officer went into detail explaining the three options
considered by the Natick team, including the general
education program, replacement classes, and the
Access Program. (Id. at 2). The hearing officer noted
that the district considered the parents’ preference
that C.D. take part in general education, but found the
district’s proposal more appropriate because of C.D.’s
unique “intellectual disability in conjunction with
weaknesses in receptive and expressive language.”
(Id.).
The hearing officer also took into consideration the
district’s proposal to allow C.D. to participate in
general education electives, to “expose [C.D.] to
general education peers, while also providing her with
the specialized services she requires, including
support for her significant language deficits, to make
progress on her IEP goals.” (Id.). The district had
further offered to reconvene in October 2012 to
determine if C.D.’s progress merited a move to a less
restrictive environment in replacement or general
education classes. (Id.). The hearing officer’s findings
are entirely consistent with the administrative record,
and reflects the discussion highlighted in the July 27,
2012 IEP meeting. (A.R. 383–433).
Accordingly, based on the preponderance of the
evidence, the BSEA hearing officer appropriately
found that the district balanced the benefits of
mainstreaming against the restrictions associated
with the Access classes, and that the 2012–2013 and
2013–2014 IEPs were reasonably calculated to provide
a FAPE in the least restrictive environment possible.
The Court sees no reason to overturn that judgment.

32a
IV. Conclusion
For the foregoing reasons, plaintiffs’ motion for
summary judgment is DENIED.
So Ordered.

33a

APPENDIX D

COMMONWEALTH OF MASSACHUSETTS
DIVISION OF ADMINISTRATIVE LAW
APPEALS SPECIAL EDUCATION APPEALS
FILED 2018 MAR 22 AM 11:39

Student v.
Natick Public Schools

BSEA #1408860R

CONSIDERATION/CLARIFICATION ON
PARTIAL REMAND
I.

Introduction

The instant Clarification is issued pursuant to the
District Court’s remand.
By Memorandum and Order on Plaintiff’s Motion
for Summary Judgment, dated July 21, 2017
(hereinafter, “District Court Decision”), the District
Court Denied Plaintiff’s Motion for Summary
Judgment and remanded, in part, my Decision of
July 24, 2015 (BSEA #1408860) to the Bureau of
Special Education Appeals (hereinafter, “BSEA”) for
further proceedings consistent with the District Court
Decision. Specifically, this matter was remanded to
“permit the hearing officer to consider, or at a
minimum clarify, whether the 2012–13 IEP was
reasonably calculated to provide a TAPE [free
appropriate public education] in the ‘least restrictive’

34a
environment possible” and “whether the 2013–14 IEP
provided for an appropriate education in the least
restrictive environment.”
Because, as noted above, the Remand was ordered
to “permit the hearing officer to consider, or at a
minimum clarify, whether the 2012–13 IEP was
reasonably calculated to provide a FAPE in the ‘least
restrictive’ environment possible” and “whether the
2013–14 IEP provided for an appropriate education in
the least restrictive environment” there was no basis
for hearing additional testimony or admitting
additional exhibits. Thus, the undersigned, by Order
dated August 10, 2017, allowed the Parties (both of
whom were represented by counsel) to submit briefs
with respect to the remand order on or before
September 8, 2017. On August 25, 2017, the Parties
jointly requested an extension of the deadline for
submitting briefs until October 20, 2017.
Their
request was allowed by Order dated September 14,
2017. Natick submitted its Memorandum of Law on
Least Restrictive Environment on October 20, 2017.
Parents submitted their Brief Pursuant to BSEA
Order Regarding District Court Remand on
October 23, 2017 and the record closed at that time.
II.

Least Restrictive Environment

Under state and federal special education law, a
school district has an obligation to provide services in
the “least restrictive environment.”
20 U.S.C.
§ 1412(a)(5)(A); Mass. Gen. Laws c. 71B, §§ 2, 3. See
also
20
U.S.C.
§ 1400(d)(1)(A);
20
U.S.C.
§ 1412(a)(1)(A);
34
C.F.R.
§ 300.114(a)(2)(i);
603 C.M.R. § 28.06(2)(c). The phrase “least restrictive
environment” means that, to the maximum extent

35a
appropriate, a student must be educated with other
students who do not have a disability, and that
“removal . . . from the regular educational
environment occurs only when the nature or severity
of the disability of a child is such that education in
regular classes with the use of supplementary aids and
services, cannot be achieved satisfactorily.” See also
Burlington v. Mass. Department of Education, 471 US
359, 369 (1985) (federal statute “contemplates that
such education will be provided where possible in
regular public schools, with the child participating as
much as possible in the same activities as
nonhandicapped children”). Where there is tension
between the educational services necessary to meet
the needs of a child (and to provide her with
educational benefit) and the principles of least
restrictive environment, “the desirability of
mainstreaming must be weighed in concert with the
Act’s mandate for educational improvement . . . ,
requir[ing] a balancing of the marginal benefits to be
gained or lost on both sides of the maximum
benefit/least restrictive fulcrum.” Roland v. Concord
School Committee, 910 F.2d 983 (1st Cir. 1990).
When the Natick Team convened to consider
Student’s placement for the 2012–2013 school year,
they considered three programs. The first, the general
education program, with supports, was preferred by
the Parents, but deemed inappropriate by Natick
because, based on Student’s IEP from her prior
placement and her test scores, Natick did not believe
that general education was appropriate for her.
(Administrative Record (“A.R.”) 413–414). The second
option was replacement classes, designed for students
who have communication disabilities, language-based

36a
learning disabilities, specific learning disabilities and
reading difficulties. Such classes provide students
with access to the regular curriculum, but material is
presented at a slower pace. The classes follow the
Massachusetts curricular standards.
(Hearing
testimony of Liptak, Vol 3, pg. 143.) The third option
for Student was the Access Program, a substantially
separate program, with opportunities for inclusion, for
students
with
intellectual
disabilities
and
communication difficulties. (Hearing testimony of
Michelson and Franciose) Natick, during both the
May 2012 Team meeting and the July 2012 Team
meeting, appropriately discussed each of the options
and
determined
which
environment
could
appropriately meet Student’s needs.
Although
Parents’ strong preference was for general education,
none of the Natick Team members believed that
Student’s IEP services could be provided, or that her
needs adequately addressed, in the general education
setting, even with supports. Although Student was
described
as
organized,
hard-working,
and
cooperative, she had an intellectual disability in
conjunction with weaknesses in receptive and
expressive language. Based upon the information
available to the Team, Natick did not believe even the
replacement classes designed for students with
communication disabilities and taught at a slower
pace would be appropriate for Student. Natick, thus,
proposed placement for Student in the Access Program
where she would have received a modified curriculum
according to her abilities, as well as instruction in a
small group. Mindful of its obligation to provide
Student with her services in the least restrictive
appropriate environment, Natick proposed that

37a
Student participate in general education electives.
Such programing would expose Student to general
education peers, while also providing her with the
specialized services she required, including support
for her significant language deficits, to make progress
on her IEP goals. (See Decision, July 24, 2015, pgs. 3–
5, 10, 11.)
Not only did Natick’s proposed IEP for the 2012–
2013 school year provide for appropriate services in
the least restrictive environment, but, Natick offered
to reconvene the Team in October 2012 to assess
Student’s progress and the appropriateness of the
program. This would have allowed Natick, after
working directly with Student for several weeks, to
amend her IEP to include additional time in less
restrictive settings as appropriate. Natick could have
provided Student with a continuum of less restrictive
options through which she could have moved as she
progressed.1 However, after arguing that Natick’s
proposal was overly restrictive, Parents placed
Student in an out-of-district school for special
education students where she would spend all of her
time in a substantially separate classroom without
any exposure to general education peers.
Natick’s proposed IEP for the 2012–2013 school year
would have provided Student with the opportunity to
1

In fact, after Student’s three-year evaluation, Natick did
propose changes to Student’s program that provided her with a
general education social studies class with paraprofessional
support as well as general education health and electives with
paraprofessional support. (Decision July 24, 2015, pages 7–8.)
Students in the Access Program were routinely transferred to
replacement classes as appropriate. (Decision July 24, 2015,
page10)

38a
independently access curriculum at her level, rather
than relying on aides, as would have been required in
a general education setting. One of the stated
purposes of the Individuals with Disabilities
Education Act (“IDEA”) is “to ensure that all children
with disabilities have available to them a free
appropriate public education that emphasizes special
education and related services designed to meet their
unique needs and prepare them for further education,
employment, and independent living.” 20 U.S.C.
§ 1400(d)(1)(A); 34 C.F.R. § 300.1(a).
Natick’s
proposed placement would have satisfied IDEA’S
purpose of better preparing Student for future
independence in education and employment, by
instructing and encouraging her to perform more
tasks independently while still in high school.
The record is clear that Natick balanced the benefits
to be gained, namely Student being able to
independently access curriculum at a level and pace
appropriate to her profile, against being outside of the
general education setting for much of her day in the
more restrictive Access classes. The record supports
the Team’s determination that Student required
specially designed instruction in small group classes
outside of the general education setting with a
modified curriculum to make progress during the
2012–2013 school year.
As noted in the Decision, the IEP for the 2013–2014
school year was substantially similar to that proposed
by Natick for the 2012–2013 school year and continued

39a
to propose placement in Natick’s Access Program.2
For the reasons explained above (and in in the original
Decision). I find that Natick’s proposal for the 2013–
2014 school year also would have provided Student
with a free appropriate public education in the least
restrictive environment.
III.

Conclusion

The 2012–2013 IEP proposed by Natick was
reasonably calculated to provide Student with a free
appropriate public education in the least restrictive
environment. The Team considered three options and
reasonably determined that the Access program was
the least restrictive setting that could adequately
address Student’s specific needs. Further, Natick
could have provided a continuum of less restrictive
options through which Student could have moved as
deemed appropriate by the Team.
Likewise, the 2013–2014 IEP, which was
substantially similar to the 2012–2013 IEP was
reasonably calculated to provide free appropriate
public education in the least restrictive setting for the
reasons delineated with respect to the 2012–2013 IEP.
By the Hearing Officer,

Catherine M. Putney-Yaceshyn
Dated: March 20, 2018

2 The 2013–2014 IEP also proposed vocational and community

services which do not impact the analysis of the least restrictive
environment.

40a

APPENDIX E

UNITED STATES DISTRICT COURT,
D. MASSACHUSETTS.
C.D., BY AND THROUGH her parents and next
friends, M.D. and P.D.,
Plaintiffs,
v.
NATICK PUBLIC SCHOOL DISTRICT and Bureau
of Special Education Appeals,
Defendants.
Civil Action No. 15-13617-FDS
|
Signed 07/21/2017
MEMORANDUM AND ORDER ON
PLAINTIFFS’ MOTION FOR SUMMARY
JUDGMENT
F. Dennis Saylor IV, United States District Judge
This dispute arises out of an administrative
decision by the Massachusetts Bureau of Special
Education (“BSEA”) concerning individualized
education programs (“IEPs”) proposed by the Natick,
Massachusetts Public School District. The BSEA
found that the IEPs were adequate to provide C.D., a
student with learning disabilities, with a “free

41a
appropriate public education,” as required under the
Individuals with Disabilities Education Act, and
denied tuition reimbursement for her placement in a
private school. C.D. and her parents have brought
suit against the School District and the BSEA
seeking to overturn the BSEA’s decision.
Plaintiffs have moved for summary judgment. For
the reasons stated below, the motion will be denied,
but the case will be remanded to the BSEA for
further consideration or clarification as to whether
two of the proposed IEPs provided for an education in
the least restrictive environment possible.
I. Background
A. Statutory Background
The Individuals with Disabilities Education Act
(“IDEA”) conditions the provision of federal funds to
public schools on compliance with a requirement to
provide all disabled children with a “free appropriate
public education” (“FAPE”). Roland M. v. Concord
Sch. Comm., 910 F.2d 983, 987 (1st Cir. 1990)
(quoting 20 U.S.C. §§ 1400(c), 1414(b)(2)(A), 1416).1
“Substantively, the ‘free appropriate public education’
ordained by the Act requires participating states to
provide, at public expense, instruction and support
services sufficient ‘to permit the child to benefit

1 On December 10, 2015, Congress enacted the Every
Student Succeeds Act (“ESSA”). See Pub. L. No. 114-95,129
Stat. 1802 (2015). Like the No Child Left Behind Act, which the
ESSA replaced, the statute is a reauthorization of the
Elementary and Secondary Education Act of 1965. The ESSA
also includes minor amendments to the IDEA that are not
relevant to this case.

42a
educationally from that instruction.’ ” Id. (quoting
Board of Educ. v. Rowley, 458 U.S. 176, 203 (1982)).
1. Individualized Education Programs
The individualized education program (“IEP”) is
the IDEA’s primary means for assuring the provision
of a FAPE to disabled children. IEPs are written
statements detailing an individualized education
plan for disabled children. At a minimum, “[e]ach
IEP must include an assessment of the child’s
current educational performance, must articulate
measurable educational goals, and must specify the
nature of the special services that the school will
provide.” Schaffer ex rel. Schaffer v. Weast, 546 U.S.
49, 53 (2005); see also Roland M., 910 F.2d at 987.
There is no mechanical checklist by which an
inquiring court can determine the proper
content of an IEP; IEPs are by their very nature
idiosyncratic. One thing is clear: the substance
of an IEP must be something different than the
normal school curriculum and something more
than a generic, one-size-fits-all program for
children with special needs.
Lessard v. Wilton-Lyndeborough Coop. Sch. Dist., 518
F.3d 18, 23 (1st Cir. 2008) (citations and internal
quotation marks omitted). The specific requirements
for IEPs can come “from either federal or state law
(at least to the extent that the latter is not
incompatible with the former).” Id.
The IDEA contains procedural safeguards that
must be followed when creating an IEP.
In
particular, parental involvement is required in order
to ensure adequate protections for the interests of
individual children with disabilities. See Rowley, 458

43a
U.S. at 208. IEPs must be formulated through the
participation of a team that includes the student’s
parents, at least one of the student’s regulareducation teachers (if any), at least one specialeducation teacher, a representative of the local
education agency, and an individual who can
interpret the instructional implications of evaluation
results. North Reading Sch. Comm. v. BSEA, 480 F.
Supp. 2d 479, 482 n.5 (D. Mass. 2007) (citing
20 U.S.C. § 1414(d)(1)(B)). At the discretion of the
parents or the agency, the team may also include
“other individuals who have knowledge or special
expertise regarding the child.”
20 U.S.C.
§ 1414(d)(1)(B)(vi). Parents also have the right to
obtain an independent educational evaluation of their
child. Frazier v. Fairhaven Sch. Comm., 276 F.3d 52,
58 (1st Cir. 2002).
Furthermore, under
Massachusetts law, schools are required to, “upon
request by a parent, provide timely access to parents
and parent-designated independent evaluators and
educational consultants for observations of a child’s
current program and of any program proposed for the
child.” Mass. Gen. Laws ch. 71B, § 3.
IEPs must be reviewed annually and revised when
necessary. Roland M., 910 F.2d at 988. Children
with disabilities must be reevaluated at least once
every three years. 34 C.F.R. § 300.303(b)(2).
2. Appropriateness and Adequacy
The IDEA requires an “appropriate” education and
an “adequate” IEP; it does not require perfection. As
the Supreme Court recently articulated, a student
receives a FAPE if the IEP is “reasonably calculated
to enable a child to make progress appropriate in

44a
light of the child’s circumstances.” Endrew F. v.
Douglas County School Dist. Re-1, 580 U.S.—at 11
(2017). Endrew F. elaborated on the Court’s prior
statement in Rowley that a student receives a FAPE
if her IEP is “reasonably calculated to enable [her] to
receive educational benefits.” Rowley, 458 U.S. at
207.
Prior to Endrew F., the First Circuit articulated
the appropriateness requirement in the following
way:
“[T]he obligation to devise a custom-tailored IEP
does not imply that a disabled child is entitled to
the maximum educational benefit possible.”
Lessard, 518 F.3d at 23, see also Rowley, 458
U.S. at 198; Lt. T.B. ex rel. N.B. v. Warwick Sch.
Comm., 361 F.3d 80, 83 (1st Cir. 2004). The
Supreme Court has said that an IEP must offer
only “some educational benefit” to a disabled
child. Rowley, 458 U.S. at 200. Thus, the IDEA
sets “modest goals:
it emphasizes an
appropriate rather than an ideal, education; it
requires an adequate, rather than an optimal,
IEP.” Lenn v. Portland Sch. Comm., 998 F.2d
1083, 1086 (1st Cir. 1993). At the same time,
the IDEA calls for more than a trivial
educational benefit, in line with the intent of
Congress to establish a “federal basic floor of
meaningful, beneficial educational opportunity.”
Town of Burlington v. Dep’t of Educ. of Mass.,
736 F.2d 773, 789 (1st Cir. 1984). Hence, to
comply with the IDEA, an IEP must be
reasonably calculated to confer a meaningful
educational benefit.

45a
D.B. ex rel. Elizabeth B. v. Esposito, 675 F.3d 26, 34
(1st Cir. 2012).
3. Least Restrictive Environment
The IDEA expresses a preference for the education
of children with disabilities in the “least restrictive
environment.” See 20 U.S.C. § 1412(a)(5). It requires
states to maintain policies and procedures to ensure
that “[t]o the maximum extent appropriate, children
with disabilities . . . are educated with children who
are not disabled, and special classes, separate
schooling, or other removal of children with
disabilities from the regular education environment
occurs only when the nature or severity of the
disability of a child is such that education in regular
classes with the use of supplementary aids and
services cannot be achieved satisfactorily.” Id. IEPs
must, therefore, balance the often competing
interests of “mainstreaming,” on the one hand, with
substantive educational improvement, on the other.
Roland M., 910 F.2d at 992–93.
4. Transition Plans
In accordance with its purpose to prepare children
with disabilities for “further education, employment,
and independent living,” 20 U.S.C. § 1400(d)(1)(A),
the IDEA requires the provision of “transition
services” beginning at age sixteen.
Id.
§ 1414(d)(1)(A)(i)(VIII).
The term “transition
services” means “a coordinated set of activities for a
child with a disability” that
(A) is designed to be within a results-oriented
process, that is focused on improving the
academic and functional achievement of the
child with a disability to facilitate the child’s

46a
movement from school to post-school
activities,
including
post-secondary
education, vocational education, integrated
employment
(including
supported
employment),
continuing
and
adult
education, adult services, independent living,
or community participation;
(B) is based on the individual child’s needs,
taking into account the child’s strengths,
preferences, and interests; and
(C) includes
instruction,
related
services,
community experiences, the development of
employment and other post-school adult
living objectives, and, when appropriate,
acquisition of daily living skills and
functional vocational evaluations.
Id. § 1401(34). Thus, at least by age 16, IEPs must
include “appropriate measurable postsecondary goals
based upon age appropriate transition assessments
related to training, education, employment, and,
where appropriate, independent living skills” and
“the transition services (including courses of study)
needed to assist the child in reaching those goals.”
Id. at § 1414(d)(1)(A)(i)(VIII)(aa)–(bb). By statute,
Massachusetts has lowered the age at which
transition planning must begin to fourteen. Mass.
Gen. Laws ch. 71B, § 2.
The IDEA does not require that there be a
separate, stand-alone “transition plan.” Lessard, 518
F.3d at 25. Rather, statements of transition services
are to be integrated with the IEP. Id.

47a
5. Rejection of a FAPE
Where a state fails to provide a FAPE in a timely
manner, the parents of a disabled child have the
right to seek reimbursement, where appropriate, for
private-school tuition. See Burlington v. Department
of Educ., 471 U.S. 359, 370 (1985). The Supreme
Court has made clear, however, that parents who
unilaterally change their child’s placement without
the consent of state or local school officials “do so at
their own financial risk,” see Burlington, 471 U.S. at
374, and are entitled to reimbursement “only if a
federal court concludes both that the public
placement violated IDEA and that the private school
placement was proper under the Act.” Florence Cty.
Sch. Dist. Four v. Carter, 510 U.S. 7, 15 (1993)
(emphasis in original). A school district that is
“unable to furnish a disabled child with a FAPE
through a public school placement” is “responsible for
the reasonable costs incident to [a proper] private
placement,” including tuition reimbursement. Five
Town, 513 F.3d at 284–85.
6. Administrative Hearings
Should the parents of a disabled child or a school
district wish to contest an IEP, the IDEA requires the
state to convene an impartial hearing. 20 U.S.C.
§ 1415(f)(1)(A). In Massachusetts, those hearings are
conducted by the BSEA in accordance with rules that
it has promulgated pursuant to Massachusetts law.
See Mass. Gen. Laws ch. 71B, § 3; 603 Mass. Code
Regs. 28.08(5); see also Roland M., 910 F.2d at 988.
Under Massachusetts law, the BSEA has jurisdiction
to hear disputes

48a
between and among parents, school districts,
private schools and state agencies concerning:
(i) any matter relating to the identification,
evaluation, education program or educational
placement of a child with a disability or the
provision of a free and appropriate public
education to the child arising under this chapter
and regulations promulgated hereunder or
under the Individuals with Disabilities Act, 20
U.S.C. § 1400 et seq., and its regulations; or (ii) a
student’s rights under Section 504 of the
Rehabilitation Act of 1973, 29 U.S.C. § 794, and
its regulations.
Mass. Gen. Laws. Ch. 71B, § 2A(a). The BSEA’s
administrative decision is reviewable in either state
or federal court.
See 20 U.S.C. § 1415(i)(2)(A),
(i)(2)(C)(iii); see also Roland M., 910 F.2d at 987–88.
However, before such an action is brought, the party
seeking review must exhaust all administrative
procedures under the IDEA. 20 U.S.C. § 1415(l).
B. Factual and Procedural Background
1. The Parties
C.D. is a young woman who has been diagnosed
with Borderline Intellectual Functioning.
(A.R.
3876).
She lives with her parents in Natick,
Massachusetts. (A.R. 272). The Natick schools
receive federal funds from the United States
Department of Education pursuant to the IDEA. (Id.
at ¶ 14).
2. C.D.’s Middle-School Experience at McAuliffe
C.D. attended McAuliffe Regional Charter Public
School in Framingham, Massachusetts, for grades six
through eight. (A.R. 3378). She took all of her

49a
classes, with the exception of math, in an inclusive,
general-education setting. (A.R. 3378, 1695). She
received
supplementary
support
in
her
general-education
classes
from
two
retired
special-education teachers, Nan Coellner and Marcia
Soden, who had been hired by her parents. (A.R. 271,
1694–1696). Coellner and Soden would stand near
C.D. and make sure that she understood what she
was supposed to be doing in class. (A.R. 1696). It
appears that C.D. did very well at McAuliffe, was
able to access the general-education curriculum, and
that her self-confidence improved significantly while
she was there. (A.R. 1697–98).
3. The 2012–13 IEP
a. The May 2012 Meeting
In May 2012, C.D.’s parents contacted Natick by
e-mail to request a meeting to discuss C.D.’s
re-enrollment in the Natick public school system.
(A.R. 161). C.D. would be completing the eighth
grade at McAuliffe that spring, and planned to enroll
at Natick High School for summer services and ninth
grade in the fall. (Id.). In anticipation of the
meeting, C.D.’s parents sent Natick her most recent
educational evaluation, which had been conducted by
Dr. Steve Imber in the winter of 2012; a
neuropsychological evaluation conducted by Dr. Erin
Gibbons; a speech and language evaluation conducted
by Susan Flax, C.D.’s speech therapist; and her
course selection list for the high school. (A.R. 161,
177, 238, 2750). C.D.’s parents requested that prior
to the meeting, they receive copies of the syllabuses
for general education classes as well as whatever

50a
program Natick thought would be appropriate for
C.D. (A.R. 161).
On May 22, 2012, Gina Dalan, the director of
special education, responded to C.D.’s parents,
informing them of Natick’s usual practices for
transferring students from McAuliffe to Natick High
School. (A.R. 268). It appears that a meeting had
already scheduled for May 24, and Dalan informed
C.D.’s parents that the meeting would be “more of an
information sharing meeting than an IEP meeting.”
(Id.). At the meeting, Natick’s special-education
coordinator would inform the parents about the
services offered at the school and what services might
be appropriate for C.D., but would not actually
propose a new IEP. (Id.). Dalan also informed the
parents that if they did decide at the meeting to
enroll C.D. at Natick High School, she would send
someone from Natick to McAuliffe to observe C.D.
and speak with her teachers to help plan for her
transition. (Id.).
At the meeting on May 24, C.D.’s parents brought
Soden and Coellner, C.D.’s private tutors; Flax, her
speech therapist; and Dr. Imber, an independent
evaluator. (A.R. 271). Also present at the meeting
were Dalan, the director of special education; Joshua
Hanna, a general-education teacher from Natick;
Milly Cuiffo, a speech and language therapist; Donna
Cymrot, a school psychologist at the high school;
Karan Litpak, a Learning Center teacher at the high
school; Barbara Molinari-Bates, the evaluation team

51a
leader at the high school; and attorneys for both
Natick and the parents. (A.R. 271–72).2
The parents informed Natick that C.D. had done
well in an inclusive setting at McAuliffe, and that
they wanted her to continue in an inclusive, generaleducation program at the high school. (A.R. 273).
The parents, Coellner, and Soden explained their
arrangement and the support Coellner and Soden
that provided to C.D. at McAuliffe. (A.R. 274–76).
The parents hoped that similar support could be
provided at the high school to enable C.D. to continue
in an inclusive setting. (A.R. 276–77).
Natick informed the parents about the different
education models available for students with learning
disabilities at the high school. (A.R. 294–95). At one
end of the spectrum, Natick offered inclusive,
general-education classes with teaching aides. (A.R.
294). It also offered replacement classes—separate
classes taught by a special education teacher where
all students were on an IEP. (A.R. 294–95). Finally,
it offered an ACCESS program, a substantially
separate program with a significantly modified
curriculum in which students would typically not
take standardized tests (the Massachusetts
Comprehensive Assessment System, or “MCAS”) and
would not receive high-school diplomas. (A.R. 295).
The parents asked about the possibility of
observing the programs available at the high school.
(A.R. 313). Molinari-Bates responded that the school

2

The “Learning Center” appears to be a class or facility
during which students with special needs can receive additional
support in their coursework. (A.R. 286).

52a
district typically permits parents or their designee to
observe a program that had been proposed in an IEP,
but because no IEP had yet been proposed—and
because C.D. had not yet enrolled at the high
school—it was too early to schedule any observation.
(Id.).
The attorney for the school district noted that
pursuant to the law concerning transfer students, the
district was required to provide services comparable
to C.D.’s current IEP at McAuliffe. (A.R. 314).
However, several representatives for Natick stated
that based on the information available at the time,
the school district had concerns about a generaleducation placement.
(A.R. 317–28, 321).
Specifically, Molinari-Bates stated that she was
concerned that the larger class sizes (approximately
30 students per class at the high school compared to
18 students per class at McAuliffe) would make the
general-education environment difficult for C.D.
(A.R. 316–18, 321). Molinari-Bates stated that the
ACCESS program appeared to be appropriate for
C.D., but, as the parents had made clear that they
were not interested in that program, that
replacement classes would likely be the most
comparable program to the services provided at
McAuliffe. (A.R. 319). When the parents inquired
about the possibility of having C.D.’s private tutors
continue to help her in general-education classes at
the high school, Molinari-Bates and the attorney for
the school district responded that having private
tutors in the classroom would not be possible because
Natick employed its own teachers and teaching aides.
(A.R. 318).

53a
Finally, the team members briefly discussed
possible plans for C.D.’s education after high school.
(A.R. 326–328). The parents stated their hope that
C.D. would receive a high-school diploma, but stated
that they did not yet have post-high school plans.
(A.R. 327). Dalan informed them of the school
district’s Achieve program, which is a job-coaching
program for students aged 18 to 22. (A.R. 327–28).
b. The July 2012 Meeting
The
parents
submitted
C.D.’s
completed
registration paperwork to Natick on May 29, 2012.
(Pl. SMF ¶ 89; A.R. 360–68). On May 31, 2012,
Dalan, the director of special education, went to
observe C.D. at McAuliffe and speak with her
special-education teacher. (A.R. 370). On June 5,
2012, Dalan wrote to the parents informing them
that while the ACCESS program appeared to be
appropriate for C.D. based on the information
available, Natick would be recommending all
replacement classes given the parents’ objections to
the ACCESS program. (Id.). Dalan also informed
the parents that due to scheduling difficulties, the
parents would not be able to observe classes at the
high school prior to the end of the school year. (Id.).
However, she stated that they would be welcome to
observe early in the fall, prior to writing a new IEP
for C.D. (Id.). Finally, Dalan informed the parents
that she would be leaving the school district on
June 22, 2012, and that Tim Luff would be replacing
her as the director of special education. (A.R. 371).
The parents, through their attorney, then wrote to
Natick on June 13, 2012, requesting an IEP team
meeting prior to the start of the 2012–13 school year.

54a
(A.R. 374–75).
They noted their concern about
placing C.D. in replacement classes, simply to comply
with regulations requiring that a transfer student
receive services comparable to their current IEP, only
to then propose a new program in the first few weeks
of the school year after proposing a new IEP. (A.R.
374). In particular, they were concerned that C.D.
would start the school year in replacement classes
only to be switched into the ACCESS program, which
they did not believe was appropriate for her. (Id.).
They requested an IEP meeting over the summer so
that a new IEP could be proposed prior to the school
year. (A.R. 375).
Natick granted the request for an IEP meeting.
Prior to the meeting, the parents requested a copy of
any report or notes that Dalan had generated as a
result of her observations of C.D. at McAuliffe. (A.R.
378). The parents wanted the information gathered
from those observations to inform the IEP meeting.
(Id.). Dalan responded that her observations were
simply intended to help ease C.D.’s transition to the
high school, that it was not a formal evaluation, and
that she did not create a written report. (Id.). She
further stated that her observations were not
intended to change what the IEP team had discussed
at their last meeting, and that their recommendation
of the ACCESS program for C.D. was based on their
discussions at that meeting and Dr. Imber’s most
recent evaluation of C.D. (A.R. 377).
An IEP meeting was held on July 27, 2012. (A.R.
383). Present at the meeting were the parents; their
attorney; C.D.’s tutors, Coellner and Soden;
Dr. Imber; Lindsey McGovern, the Assistant Director
for Student Services at Natick High School; Tim Luff,

55a
the new Director of Student Services at Natick High
School; Paul Tagliapietra, the Assistant Director of
Student Services at Natick elementary schools;
Donna Bresnick, a special education teacher at
Natick High School; Kari-Anne Daley, a social
studies teacher at Natick High School; Rose Bertucci,
Principal of Natick High School; Susan Balboni, the
Assistant Director for Student Services at Natick
Middle School; and Alisia St. Florian, the attorney for
Natick. (A.R. 384–85. 2601).
The purpose of the meeting was to discuss C.D.’s
transition to Natick High School and to develop a
new IEP for her. (A.R. 385). McGovern began the
meeting by asking the parents if they had any
concerns that should guide the IEP development.
(A.R. 385). The parents expressed concern about
whether C.D. would be placed with students who had
behavioral issues; the kind of support she would
receive in non-academic courses; whether she would
be able to access the general-education curriculum;
and whether the block schedule—with 80-minute
classes two or three days per week instead of
45-minute classes five days a week—would be
difficult for C.D. given her memory deficits. (A.R.
385–86).
Tagliapietra, who appears to have worked with
C.D. over the summer during her extended-schoolyear classes, reported on the kind of work she had
been doing over the summer. (A.R. 387–88). He
stated that her level of performance over the summer
matched the level of performance that was stated in
her previous IEP from McAuliffe. (A.R. 387).

56a
The team then discussed long-term plans for C.D.
(A.R. 391–92). The parents expressed some concern
about whether C.D. would pass the MCAS—which is
required to receive a high school diploma—and asked
about what vocational services Natick could provide
to help C.D. get a job after high school. (A.R. 392).
Natick representatives then explained the range of
transition services and vocational services available.
(A.R. 392–95). They also explained that because C.D.
was 14 years old, they would begin planning for her
transition that year.
(A.R. 392).
McGovern
recommended that the IEP team reconvene in
October to make any necessary revisions to C.D.’s
IEP and to begin developing a detailed transition
plan for her. (A.R. 392–93).
C.D.’s tutors then discussed her performance at
McAuliffe. (A.R. 396–400). They highlighted her
areas of strengths and weaknesses, and stated that
she did well in her general-education classes with
appropriate support—which they described as being
not significant. (Id.). Dr. Imber then explained that
because of the ways in which tests and formal
evaluations are performed, C.D.’s test scores did not
adequately reflect her abilities. He also stated that
with appropriate supports and services, she could
perform at a level substantially higher than that
indicated by her test scores. (A.R. 400). Natick
representatives expressed some concern about what
they perceived as the very large discrepancy between
what the parents and the parents’ experts said about
C.D.’s abilities as compared to her very low test
scores. (A.R. 402).
The team then discussed C.D.’s goals and
objectives—which they adopted from her prior IEP—

57a
and the types of services that would be necessary to
help her achieve those goals. (A.R. 405). McGovern
stated her belief that the ACCESS program would
best help C.D. achieve her goals, because it was
designed for students with cognitive, communication,
and social/pragmatic deficits, and that C.D. “would,
on paper, fit into that category” given her intellectual
disability and difficulties with communication and
social/pragmatic skills.
(A.R. 406).
Natick
representatives then explained the curriculum and
structure of the ACCESS program. (A.R. 407–08).
The parents again expressed concern about the block
schedule, given C.D.’s memory deficits. McGovern
explained that the ACCESS program would help
address those concerns because, as a separate
program with a single teacher, it provides more
continuity of instruction across different subject
matters.
(A.R. 408–09).
Several Natick
representatives also explained that students in the
ACCESS program can transition into replacement or
general-education classes as they are able to do so,
and that they take general-education electives with
appropriate supports and instructional assistants.
(A.R. 410–12).
The parents again expressed their belief that,
based on her performance at McAuliffe, C.D. should
be in general-education classes with support. (A.R.
413). McGovern stated that, based on her IEP from
McAuliffe and her test scores, the school district did
not believe that general education was appropriate
for her and that the ACCESS program would best
meet her needs. (A.R. 413–14). Thus, McGovern
stated that Natick would propose an IEP that
included the ACCESS program, plus electives in

58a
general education. (A.R. 416–17). McGovern also
stated that they would re-evaluate in October and
make any adjustments necessary. (A.R. 416–17,
419).
c. The Proposed IEP
On July 30, 2012, Natick provided the parents with
their proposed IEP for the 2012–13 school year. (A.R.
2600). The IEP provided that all of C.D.’s academic
classes would be in the ACCESS program, with
electives in the general-education setting. (Id.). The
IEP reflected the conclusion that the ACCESS
program was the least-restrictive environment in
which to ensure FAPE and address C.D.’s needs.
(A.R. 2606).
It also indicated that the
recommendation was based on C.D.’s prior IEP from
McAuliffe, as well as input from the Assistant
Director of Student Services, who oversaw the
extended school year program in which C.D.
participated; C.D.’s father; her tutors and educational
consultant; Natick’s Directors of Student Services at
the middle- and high-school levels; and the principal
of Natick High School. (Id.). The IEP also referred to
Natick’s long-term plan for C.D., reflecting her
parents’ hopes that she receive a high-school diploma
and receive appropriate vocational training. (A.R.
2606). The IEP did not set out a specific transition
plan, but did state that one would be developed at the
next IEP team meeting in October. (A.R. 2606, 2621).
On August 9, 2012, the parents rejected the
proposed IEP. (A.R. 2621). The parents stated their
belief that placement in the ACCESS program would
hinder C.D.’s academic and social development, that
the goals set out in the IEP were not aggressive

59a
enough, that the services being proposed were not
adequate to help C.D. meet her goals, and that a
general-education setting would be more appropriate
for her. (A.R. 2623–25, 3427). The parents decided
to enroll C.D. at a private school, Learning Prep, for
the 2012–13 school year, and requested that Natick
fund her placement there. (A.R. 3427).
4. The 2013–14 IEP
On May 22, 2013, Natick convened a team meeting
to review C.D.’s IEP and propose a new IEP for the
2013–14 school year.
(A.R. 3307).
A
general-education teacher was present at the meeting
to review the electives available at Natick High
School. (Id.). The ACCESS teacher was also present
to answer questions about that program; however,
C.D.’s father, who participated by conference call, did
not have any questions or comments for her. (Id.).
At the meeting, the team reviewed reports of C.D.’s
performance at Learning Prep in the areas of history,
biology, and language arts/literature. No one from
Learning Prep attended the meeting. (Id.).
Based on the information presented at the
meeting, Natick again proposed an IEP that provided
for all of C.D.’s academic classes to be in the ACCESS
program, with general-education electives. (Id.). The
proposed IEP for the 2013–14 school year was very
similar to the IEP proposed for the 2012–13 school
year. (A.R. 2360–61).
On June 17, 2013, the parents rejected the 2013–
14 IEP for the same reasons as they rejected the prior
IEP. (A.R. 3424). They decided to re-enroll C.D. at
Learning Prep, where they believed she was receiving
an appropriate education.
(Id.).
They again

60a
requested public funding for her placement. (A.R.
3426). Natick declined that request, stating that
Learning Prep, which is a school exclusively for
students with learning and language disabilities, was
a more restrictive environment than that provided by
Natick’s proposed IEP, where C.D. would have at
least some opportunities to take classes in a generaleducation setting. (A.R. 3425–26).
5. The 2014–15 IEPs
On March 12, 2014, Natick requested the consent
of C.D.’s parents to conduct educational assessments,
achievement testing, psychological testing, and a
speech and language evaluation as part of C.D.’s
three-year re-evaluation. (A.R. 596–97; 2754). On
March 17, the parents rejected the proposed
evaluations due to questions about the evaluations
that were going to be performed. (A.R. 2756). Natick
then scheduled a team meeting for April 15, both to
discuss C.D.’s re-evaluation and to propose a new IEP
in order to replace the prior IEP, which was set to
expire. (A.R. 604–05; 2362). Natick proposed an IEP
for the 2014–15 school year (the IEP was dated
April 15, 2014, through April 15, 2015) with the
expectation that C.D.’s three-year reevaluation would
be conducted shortly and that the team would
reconvene in June in order to revise the IEP in
accordance with the information gained from the
reevaluation. (A.R. 2362; 3282).
Employees or representatives of Natick then
conducted a psychological evaluation on May 23,
2014 (A.R. 959); a speech and language re-evaluation
on May 27, 2014 (A.R. 945); and an achievement
evaluation on June 6, 2014 (A.R. 954).
The

61a
psychological evaluation found that C.D. had
strengths in social, emotional, and behavioral
domains, but cognitive functioning in the extremely
low/borderline range. (A.R. 966–67). The speech and
language re-evaluation found that C.D. had strengths
in pragmatic language, including things such as eye
contact and body language, as well as word memory
and comprehension of spoken paragraphs, but
significant
deficits
in
sentence
formation,
understanding
vocabulary
and
semantic
relationships, and memory in general. (A.R. 950).
The achievement evaluation demonstrated that C.D.
was below average in reading and written expression
and significantly below average in mathematics.
(A.R. 955).
A team meeting was then held on June 13, 2014, to
review the evaluations as well as reports of C.D.’s
progress as Learning Prep. (A.R. 983–84). Present
at the meeting were Barbara Molinari-Bates; Lindsey
McGovern; Maryann Ouellet, the Chair of the
English Department; C.D.’s father; Dr. Imber; and
the three individuals who had performed C.D.’s
evaluations. (Id.). The team members reviewed the
information provided by Learning Prep, which
indicated that C.D. was a hard-working student, but
that she had difficulties processing information and
maintaining attention, as well as deficits with her
memory and expressive and receptive language.
(A.R. 987). Each evaluator then summarized their
findings. (A.R. 991–1006).
After reviewing all of that information, Natick
stated that C.D.’s disability category, which had been
noted as “Intellectual” in her prior IEPs, was not
supported by the evidence. (A.R. 1007). Donna

62a
Cymrot,
the
school
psychologist
who
had
administered
C.D.’s
psychological
evaluation,
explained that her strengths in social and emotional
functioning, as well as her cognitive functioning,
suggested that she did not fit within the category of
“intellectually disabled” but, rather, had a narrower
language or communication disability. (A.R. 1007–
08). C.D.’s father was surprised by the change, and
stated that he needed time to process the
information. (A.R. 1008–09).
Based on the information presented from Learning
Prep and the evaluations, the team then discussed a
new IEP for C.D. (A.R. 1009).3 First, Natick
proposed placing C.D. in replacement classes for
English, which it believed would be comparable to the
English classes she was taking at Learning Prep, as
well as an additional ACCESS reading class. (A.R.
1011–12, 1015). It proposed replacement classes for
science, which would prepare her to take the science
MCAS. (A.R. 1038). It also proposed placing her in
general-education classes, with appropriate supports,
for history/social studies. (A.R. 1027). It proposed
placing her in the ACCESS program for math,
because she required additional support in that area.
(A.R. 1025). Finally, it proposed a daily academicservices class for additional support as well as speech
and language services.
(A.R. 1021, 1046–47).
Representatives for Natick also discussed their plans
to conduct a formal transition evaluation in order to
3

Natick had already proposed one IEP for the 2014–2015
school year in April 2014, but the parents had rejected it on the
ground that it was nearly identical to the IEPs they had rejected
in the past. (A.R. 3423).

63a
plan for C.D.’s transition out of high school, and
discussed her areas of interest and possible
internship opportunities for her. (A.R. 1010, 1051–
54).
C.D.’s father expressed some concerns about the
block schedule at Natick High School, both in terms
of the reduced number of classes C.D. would be able
to take and the day-long break between classes.
(A.R. 1017, 1021). He also expressed concern that the
reading
and
writing
requirements
in
a
general-education history class might be too
demanding for her. (A.R. 1030). Representatives for
Natick assured him that she would receive any
necessary supports and modifications. (A.R. 1030–
32).
Following the meeting, Natick formally proposed a
new IEP for the 2024–15 school year. (A.R. 2529).
On July 7, 2014, the parents rejected that IEP on the
grounds that no transitional assessment had yet been
done (and that a transitional assessment would
change C.D.’s benchmarks and objectives) and
because there would not have been time in Natick’s
proposed schedule for her to receive speech and
language services. (A.R. 3420). They decided to
re-enroll her at Learning Prep for the 2014–15 school
year. (Id.).
6. Classroom Observations and the Motion to
Compel
On May 29, 2014, the parents requested that their
independent evaluators and educational consultants,
Dr. Imber and Flax, be allowed to observe the
program proposed for C.D.
At that time, the
proposed program offered only the ACCESS program

64a
for academic classes and general-education classes
for electives. (A.R. 3126). They also requested that
Dr. Imber and Flax be permitted to meet with the
ACCESS program teacher and the school’s
speech-language pathologist. (Id.).
On June 10, 2014, Dr. Imber and Flax met with
the ACCESS teacher, observed ACCESS math and
science classes, and observed a general-education
elective with ACCESS students. (A.R. 3129). They
were permitted to ask the ACCESS teacher brief
factual questions related to their observations. (Id.).
The speech-language pathologist was not available to
meet with them that day. (Id.). (A.R. 3144–46)
In September 2014, after Natick’s proposed IEP
had
changed
to
include
replacement
and
general-education classes, the parents requested that
they and their evaluators and consultants be allowed
to observe those classes. (A.R. 3130). They also
requested that C.D.’s tutors be allowed to observe the
ACCESS program.
(Id.).
Observations were
scheduled for October 24, 2014, and the parents were
told that their consultants would be permitted to
observe only, but not to ask questions of the teachers.
(A.R. 3131–3140). It appears that during the prior
observations, the ACCESS teacher felt that their
questions had been disruptive and inappropriate.
(A.R. 3146). The parents requested separate time,
not during class time, to speak with staff. (A.R.
3136). Natick declined that request, stating that the
observations were to be observations only, not an
opportunity to speak in depth with staff. (A.R. 3137).
However, Natick did provide that each visitor would
have an escort who would be able to answer basic
factual questions. (Id.).

65a
During the course of the observations on
October 24, 2014, the attorney for Natick contacted
the parents to inform them that their consultants
had asked for time to speak with teachers during the
observations, despite their instructions that the
consultants were to observe only. (A.R. 3140). Flax
had asked a few basic questions of the replacement
English teacher during a class break. (A.R. 3147).
However, she later stated that she was unable to
evaluate the appropriateness of the class for C.D. due
to her inability to ask the teacher more detailed
questions. (A.R. 3148). Dr. Imber also stated that
his inability to ask questions prevented him for
properly evaluating the appropriateness of the
proposed IEP. (A.R. 3153, 3755). Flax and Dr. Imber
both stated that it is their usual practice to observe
proposed classes as well as interview teachers and
other service providers, and that they had never
before encountered such significant barriers to
speaking directly with teachers. (A.R. 3147, 3149,
3152).
On November 12, 2014, the parents filed a motion
to compel with the BSEA seeking an order compelling
Natick to provide them and their consultants with
the opportunity to directly communicate with the
teachers and service providers who would be working
with C.D. under Natick’s proposed IEP. (A.R. 3112).
The hearing officer concluded that permitting the
parents’ experts to submit written questions would
provide sufficient access to staff, and ordered them to
submit any outstanding questions from their
observations in writing and ordered Natick to
respond in writing. (A.R. 815–16). The parents’
experts submitted numerous questions to the

66a
teachers of the specific classes that they observed,
and received responses. (A.R. 1399–1400).4
7. The November 14, 2014 Team Meeting and
Updated 2014–15 IEP
Natick conducted a transition evaluation with C.D.
in the fall of 2014. (A.R. 1180). The evaluation
indicated that C.D. was interested in culinary arts
and fashion, including being a hairstylist or make-up
artist.
(A.R. 3246).
However, C.D. appeared
unaware of what was required to obtain a job in one
of those areas and lacked independent goal-setting
and planning skills. (Id.).
In order to review the evaluation and discuss an
updated IEP, Natick scheduled a team meeting for
November 14, 2014.
(A.R. 3404).
Prior to the
meeting, the parents provided Natick with
independent evaluations conducted by their
consultants. (A.R. 3662–3755, 3802–3833, 3876–
3898).5 Present at the meeting were C.D.’s father; a

4

By order of the hearing officer, Natick was not required to
answer every question that the parents’ experts submitted. The
hearing officer concluded that some of the questions were more
akin to interrogatories than clarifying questions based on their
observations, and that Natick was not required to answer such
questions. (A.R. 1399–1400).
5

The independent evaluators recommended that C.D. stay at
Learning Prep for the remainder of high school.
They
emphasized the benefits of receiving a “regular” high-school
experience rather than being pulled in and out of separate
programs. In addition, the independent evaluation of Suzanne
Flax concluded that the diagnoses that best described C.D.’s
disability were a primary diagnosis of intellectual impairment
with a secondary diagnosis of communication impairment. (A.R.
3832). The independent evaluation conducted by Dr. Gibbon

67a
special-education teacher; a transition coordinator; a
general-education teacher; McGovern, the Assistant
Director of Student Services; Luff, the Director of
Student Services; Cymrot, the school psychologist;
Flax; Dr. Imber; Coellner, C.D.’s tutor; and attorneys
for both Natick and the parents. At the meeting, the
parents objected to the reclassification of C.D.’s
disability from “learning” to “communication,”
although the basis of their objection is unclear from
the record. (A.R. 2501).
Natick then proposed a new IEP for C.D., again
recommending general education classes for electives
and social studies and either replacement classes or
the ACCESS program for science, math, English, and
reading.
(A.R. 2502, 2517).
The IEP also
recommended speech and language therapy as well
as transition services. (A.R. 2517). In order to
provide all of the services recommended, the IEP
proposed an extended school day in which C.D.’s
transition services and career preparation would take
place after regular school hours. (A.R. 2518).
The parents had additional questions after the
November 14, 2014 meeting, and requested a second
team meeting to discuss the transition plan and new
IEP. (A.R. 3400). Natick did not believe that a
second meeting was necessary. (Id.).
The parents rejected the proposed IEP on
December 20, 2014. (A.R. 3398). They provided a
lengthy list of reasons for their rejection, including,
among other things, the change in C.D.’s disability

stated that C.D.’s evaluation was consistent with diagnosis of
mild intellectual disability. (A.R. 3893).

68a
category from “intellectual” to “communication”;
unaddressed concerns about the block schedule; the
lack of time in C.D.’s schedule for non-academic
electives; concerns about the extended school day;
and C.D.’s placement in the ACCESS program for
math, which would not prepare her for the MCAS.
(A.R. 3403).
Their notification of rejection also
requested a meeting to discuss the refused
placement. (A.R. 3398).
A team meeting was held on January 7, 2015, to
discuss the parents’ rejection of the 2014–15 IEP.
(A.R. 3395). At the meeting, representatives for
Natick explained that the IEP was based on an
individualized assessment of C.D.’s strengths and
weaknesses, not on her disability category. (Id.).
Natick rejected the request to change C.D.’s disability
category, stating that the switch to “communication”
was based on C.D.’s transition assessment. (Id.).
Natick also rejected the parents’ request that C.D.
participate in the standard administration of the
math MCAS. (A.R. 3396). Instead, Natick proposed
that based on data from her teachers at Learning
Prep and the recent assessments showing significant
weaknesses in math, she should take the MCAS
Alternate Assessment for math. (Id.) Natick also
stated, however, that it would continually review that
decision were C.D. to enroll at Natick High School.
(Id.). In order to address the parents’ concerns about
C.D.’s schedule, Natick also agreed to provide them
with draft schedules based on the proposed IEP.
(Id.).

69a
8. The Appeal to the BSEA
The parents first requested a due-process hearing
challenging Natick’s proposed IEPs on May 23, 2014.
(A.R. 870). They amended that request on April 1,
2015.
(A.R. 869).
The parents alleged that
(1) Natick’s proposals to place C.D. in the ACCESS
program for all academic subjects in the 2012–13 and
2013–14 IEPs, as well as the initial 2014–15 IEP,
violated C.D.’s rights under the IDEA to be educated
in the least restrictive environment in which she
could succeed (Claim I); (2) Natick “predetermined”
C.D.’s placement in the ACCESS program, thereby
violating the IDEA’s procedural requirement that
parents have the opportunity to participate
meaningfully in IEP meetings (Claim II); (3) Natick
failed to provide transitional planning as required
(Claim III);
(4) Natick
failed
to
provide
extended-school-year
services
in
July
2012
(Claim IV); (5) Natick unnecessarily scheduled
annual reviews, IEP team meetings, and evaluations
while C.D. was unilaterally placed in a private school
in another district or violated procedural
requirements under IDEA by failing to include
persons knowledgeable about C.D. and the proposed
programs at IEP meetings (Claim V); (6) Natick
failed to disclose that its attorney would be
participating in IEP meetings (Claim VI); and
(7) Natick retaliated against the parents and C.D. for
requesting a due-process hearing by changing C.D.’s
disability category and denying her to opportunity to
take the Math MCAS (Claim VII).
A hearing was held before Hearing Officer
Catherine Putney-Yaceshyn on May 12, 13, 27, and
28, 2015. (A.R. 1551). In a written order dated

70a
July 24, 2015, the Hearing Officer concluded that the
IEPs proposed by Natick for the 2012–13, 2013–14,
and 2014–15 school years were all reasonably
calculated to provide C.D. with a free appropriate
public education in the least restrictive environment.
(A.R. 1571).6
As to the proposed IEP for the 2012–13 school year,
the hearing officer concluded that the IEP was less
restrictive than C.D.’s placement at McAuliffe
because it provided her “the opportunity to
independently access academic services in a program
specifically designed for students with profiles
similar to [hers],” whereas at McAuliffe, she received
one-on-one assistance from her tutors. (A.R. 1565).
The hearing officer noted that while none of the
witnesses testified about the level of restrictiveness
of C.D.’s placement at McAuliffe, she “took note of it.”
(Id.). She also concluded that one of the parents’
reasons for rejecting the 2012–13 IEP—the father’s
belief that the goals in the proposed IEP, which were
the same goals contained in the McAuliffe IEP,
should have changed because the setting was
changing from an inclusive, general-education setting
to the separate ACCESS program—was not valid
because the father did not have any credentials in
education. (A.R. 1566). She also discredited the
father’s contention that the hours of service in the
proposed IEP were decreasing from those provided in
the prior IEP because “[h]e did not present any
6

Although dated July 24, 2015, the Hearing Officer’s final
order was actually issued on July 28, 2015, and includes three
paragraphs inadvertently omitted from the July 24 version.
(A.R. 1549).

71a
credible evidence to support that presumption.” (Id.).
She also concluded that the parents’ assumption that
placement in the ACCESS program would result in
C.D. being unable to pass the MCAS was not
supported by the evidence, as the ACCESS teacher
had testified that students in the program are
routinely placed in replacement classes when their
abilities indicate that is appropriate. (Id.).
As to the proposed IEP for the 2013–14 school year,
the hearing officer concluded that because it was
substantially similar to the IEP proposed for the
prior year, and because it had been rejected for the
same reasons as the prior IEP, she found that it was
reasonably calculated to provide C.D. with a free
appropriate public education for the same reasons.
(A.R. 1567).
As to the first IEP proposed for the 2014–15 school
year, the Hearing Officer concluded that it was
created before C.D.’s three-year evaluation could be
conducted, and therefore was simply a provisional
proposal that was created with the understanding
that it would be updated following the three-year
evaluation. (Id.).
As to the second IEP proposed for the 2014–15
school year, the hearing officer noted that the parents
had rejected the IEP in part because no transition
assessment had yet been conducted and that such an
assessment would likely change the benchmarks and
objectives of the IEP. (A.R. 1568). However, she
concluded that the fact that a transition assessment,
once conducted, might change the relevant
benchmarks and objectives had “no bearing on the
appropriateness of what was proposed by Natick.”

72a
(Id.). In addition, the hearing officer did not credit
the parents’ contention that the services proposed
could not actually all be delivered within Natick’s
schedule, concluding that there was no evidence in
the record to support that belief. (Id.). She also
concluded that despite the parents’ objections to
C.D.’s placement in any ACCESS classes, the
proposal for math and reading classes in the
ACCESS program was appropriate given C.D.’s welldocumented weaknesses in those areas.
(Id.).
Finally, she concluded that there was credible
evidence that students in the ACCESS program often
move to replacement classes where they are then able
to take the MCAS. (Id.).
The third IEP proposed for the 2014–15 school year
included the same recommendations for C.D.’s
academic classes, but included additional transition
services to be provided in a one-on-one setting after
school. (A.R. 1569). The parents objected to the
proposed transition services on the grounds that the
one-on-one setting was inappropriate and that C.D.
would not receive services tied to her specific
interests. (Id.). The hearing officer concluded that
based on the credible testimony of Lindsay
McGovern, the delivery of transition services in a
one-on-one setting after school was simply one of
several scheduling options presented to the parents
and was intended to allow C.D. to receive transition
services without taking away time in her schedule for
non-academic electives in the general education
setting. (Id.). She also concluded that based on the
testimony of Katherine Brown, who taught the
vocational class for the ACCESS program, C.D. would
have been able to receive vocational training related

73a
to her interests in cooking and baking. (A.R. 1559,
1569). Thus, the hearing officer concluded that
Natick’s
proposed
vocational
training
was
appropriate. (A.R. 1569). Finally, the hearing officer
noted the parents’ objection regarding the change in
C.D.’s disability classification. (Id.). She concluded,
however, that they had not pointed to any impact
that the change would have on the delivery of
services, and that Natick staff had credibly testified
that the change would in fact have no impact on the
way in which services were delivered. (Id.).
The hearing officer next addressed the alleged
procedural violations.
She concluded that the
credible evidence did not support the parents’
contention that they had been unable to receive
information and thus to participate meaningfully in
the team’s decision-making. (A.R. 1570). She found
that the parents and their consultants were able to
ask questions at all of the team meetings, that they
had the opportunity to ask Dalan and her
predecessor questions following the team meeting in
the summer of 2012, and that McGovern and the
ACCESS teacher had, on one occasion, made
themselves available to answer questions about the
program. (Id.). She concluded that the parents failed
to point to any specific instance in which they were
not able to participate in the team process or to have
their questions answered. (Id.).
As to the retaliation claim, the hearing officer
noted that the record was unclear as to the basis of
the claim but that, in any event, the BSEA did not
have jurisdiction over claims of discrimination under
Section 1983. (Id.)

74a
Finally, the hearing officer concluded that because
the IEPs proposed by Natick were all reasonably
calculated to provide C.D. with a free appropriate
education in the least restrictive environment, the
parents were not entitled to reimbursement for their
unilateral placement of C.D. at Learning Prep. (Id.).
The hearing officer noted that, in reaching her
decision, she did not rely on the testimony of
Dr. Imber or Suzanne Flax. (Id.). She concluded that
Flax was not a credible witness based on her
statements that C.D. would not benefit from any
inclusion classes—a statement not supported by any
other witness and inconsistent with Flax’s prior
recommendations—and her statement that C.D.
would not make any friends in the ACCESS
program—a statement based entirely on speculation.
(Id.). She concluded that Dr. Imber was not credible
because his belief that inclusion was no longer
important for C.D. suggested that he changed his
recommendations to align with whatever placement
she was in at the time. (A.R. 1570–71). Finally, the
hearing officer did not rely on the most recent reports
submitted by Flax, Dr. Imber, and Dr. Roffman (a
transition expert) as they were first presented to
Natick just prior to the hearing and were not
available to the team while preparing the proposed
IEPs. (A.R. 1571).
9. The Appeal to This Court and Remand to the
BSEA
On October 21, 2015, plaintiffs filed the complaint
in this action seeking review of the BSEA’s decision.
They filed for summary judgment on June 27, 2016.

75a
A hearing was held on December 1, 2016, and the
Court took the motion under advisement.
On March 22, 2017, while the motion was under
advisement, the Supreme Court issued its decision in
Endrew F. On March 28, the Court denied plaintiffs’
motion for summary judgment and remanded the
case to the BSEA in order for the hearing officer to
indicate whether the standard she applied was in
accordance with the standard announced in Endrew
F.
The hearing officer responded on April 10,
indicating that the standard she applied—the
standard articulated in the First Circuit prior to
Endrew F.—was in accordance with the standard set
forth in Endrew F. and that her decision in this case
was not impacted by Endrew F. Plaintiffs then
renewed their motion for summary judgment.
II. Legal Standard
Plaintiffs have moved for summary judgment on
their challenge to the BSEA’s conclusions. However,
“[i]n a case like this, summary judgment is merely
the device for deciding the issue, because the
procedure is in substance an appeal from an
administrative determination, not a summary
judgment.” North Reading, 480 F. Supp. 2d at 481
n.1 (citations and internal quotation marks omitted).
The burden of proof rests on the party challenging
the BSEA hearing officer’s decision. Hampton Sch.
Dist. v. Dobrowolski, 976 F.2d 48, 54 (1st Cir. 1992).
Essentially, “judicial review [of administrative
decisions on claims brought under the IDEA] falls
somewhere between the highly deferential clear-error
standard and the non-deferential de novo standard.”
Lessard, 518 F.3d at 24 (citing Roland M., 910 F.2d

76a
at 989). The IDEA provides that courts reviewing
agency decisions “(i) shall receive the records of the
administrative proceeding; (ii) shall hear additional
evidence at the request of a party; and (iii) basing its
decision on the preponderance of the evidence, shall
grant such relief as the court determines is
appropriate.”
20 U.S.C. § 1415(i)(2)(C).
The
Supreme Court has explained that a district court’s
review entails both procedural and substantive
aspects.
Rowley, 458 U.S. at 205 (“When the
elaborate and highly specific procedural safeguards
embodied in § 1415 are contrasted with the general
and somewhat imprecise substantive admonitions
contained in the Act, we think that the importance
Congress attached to these procedural safeguards
cannot be gainsaid.”).
Thus, in reviewing the
appropriateness of an IEP, a court “must ask two
questions: ‘First, has the State complied with the
procedures set forth in the Act? And second, is the
individualized educational program developed
through the Act’s procedures reasonably calculated to
enable the child to receive educational benefits?’ ”
Roland M., 910 F.2d at 990 (quoting Rowley, 458 U.S.
at 206–07).
A reviewing court must ensure that the school
district and state education agency adhere
scrupulously to the procedural requirements of the
statute and relevant regulations and rules. See
Rowley, 458 U.S. at 205–06 (noting that the Act
“demonstrates the legislative conviction that
adequate compliance with the procedures prescribed
would in most cases assure much if not all of what
Congress wished in the way of substantive content in
an IEP.”).
However, in reviewing an agency’s

77a
substantive decisions on FAPEs and IEPs, a
reviewing court’s “principal function is one of
involved oversight.” Roland M., 910 F.2d at 989.
“[C]ourts should be [loath] to intrude very far into
interstitial details or to become embroiled in captious
disputes as to the precise efficacy of different
instructional programs.” Id. at 992; see also Lt. T.B.
ex rel. N.B. v. Warwick Sch. Comm., 361 F.3d 80, 83
(1st Cir. 2004) (“The Rowley standard recognizes that
courts are ill-equipped to second-guess reasonable
choices that school districts have made among
appropriate instructional methods.”). Nonetheless, it
is the reviewing court’s role to render “an
independent ruling as to the IEP’s adequacy based on
a preponderance of all the evidence, including the
hearing officer’s duly weighted findings.” Lenn, 998
F.2d at 1089.
In short, on matters that implicate educational
expertise, heightened deference is due to an agency’s
administrative findings. Mr. I v. Maine Sch. Admin.
Dist. No. 55, 416 F. Supp. 2d 147, 156 (D. Me. 2006).
However, “when the issue is more a matter of law,
the educational expertise of the agency is not
implicated, and less deference is required.” Id. at
157.
As to the evidence, the administrative process is to
be accorded “its due weight” such that “judicial
review does not become a trial de novo, thereby
rendering the administrative hearing nugatory.” Id.
at 996. The First Circuit has directed district courts
reviewing appeals of administrative decisions under
the IDEA to

78a
review[ ] the administrative record, which may
be supplemented by additional evidence from
the parties, and make[ ] an independent ruling
based on the preponderance of the evidence.
That independence is tempered by the
requirement that the court give due weight to
the hearing officer’s findings. This intermediate
level of review reflects the concern that courts
not substitute their own notions of educational
policy for that of the state agency, which has
greater expertise in the educational arena.
Lt. T.B., 361 F.3d at 83–84 (citation and internal
quotation marks omitted).
Finally, an IEP should not be judged exclusively in
hindsight. “An IEP is a snapshot, not a retrospective.
In striving for ‘appropriateness,’ an IEP must take
into account what was, and was not, objectively
reasonable when the snapshot was taken, that is, at
the time the IEP was promulgated.” Roland M., 910
F.2d at 992.
III. Analysis
A. The Impact of Endrew F.
As noted, the Supreme Court refined its
formulation of the standard for determining the
appropriateness and adequacy of an IEP during the
pendency of this case. In Endrew F., the court held
that a student receives a FAPE if the IEP is
“reasonably calculated to enable a child to make
progress appropriate in light of the child’s
circumstances.” 580 U.S. at 11. The standard as
articulated by the First Circuit prior to Endrew F.
states that “an IEP must be reasonably calculated to

79a
confer a meaningful educational benefit.” D.B. ex rel.
Elizabeth B., 675 F.3d at 34.
The Court agrees with the hearing officer that the
standard articulated in Endrew F. is not materially
different from the standard set forth in Elizabeth B.,
and applied by the hearing officer, at least as it
applies to the facts of this case.
Contrary to
plaintiffs’ contention, Endrew F. did not reject all
standards that focus on the level of benefit provided
in favor of a standard based on the level of
instruction. Rather, Endrew F. explains that the
benefit to be provided is “appropriate” educational
progress. That is consistent with a “meaningful
educational benefit.” See Brandywine Heights Area
Sch. Dist. v. B.M., 2017 WL 1173836, at *10 n.25
(E.D. Pa. March 29, 2017) (concluding that
“meaningful educational benefit” standard applied by
hearing officer is consistent with Endrew F.).
B. Adequacy of the 2012–13 IEP
Plaintiffs’ first challenge is to the adequacy of the
2012–13 IEP.
1. Procedural Challenges
Plaintiffs first contend that Natick violated the
procedural requirements of the IDEA by failing to
have a team composed of individuals knowledgeable
about either C.D. or the classes and programs being
proposed for her. In particular, they allege that there
was no one from Natick present at the July 2012
meeting with direct knowledge about C.D., nor was
there a teacher from the ACCESS program. That
contention fails for two reasons.
First, plaintiffs’ contention is belied, in part, by the
administrative record. The transcript from the July

80a
2012 meeting makes clear that a teacher familiar
with C.D. from the extended-school-year program at
Natick was in fact present, and did share his
observations regarding C.D.’s performance. (A.R.
387).
Second, while the ACCESS teacher was not
present, that absence did not constitute a procedural
violation of the IDEA. The IDEA requires that an
IEP team include (1) the student’s parents; (2) at
least one of the student’s regular-education teachers
(if the student is or may be placed in regular
education classes); (3) at least one special-education
teacher, or, where appropriate, at least one of the
student’s
special-education
“providers”;
(4) a
representative of the local educational agency; and
(5) “an individual who can interpret the instructional
implications of evaluation results.”
20 U.S.C.
§ 1414(d)(1)(B).
In addition, where appropriate,
other individuals with knowledge or expertise about
the student and/or the student herself may also
participate. Id.
There is no statutory requirement that the teacher
of the program in which a student is likely to be
placed be present at all team meetings.7 The IDEA
7

The IDEA does require that the IEP include one of the
student’s regular-education teachers. While the team did
include a regular-education teacher from Natick High School,
there was not a regular-education teacher who had taught C.D.
However, the parents have not objected to the team composition
on that ground.
In addition, because C.D. had been at
McAuliffe—an out-of-district placement—for the past three
years, there was not a regular-education teacher at Natick with
any direct experience with her. While the presence of one of
C.D.’s teachers from McAuliffe might have been beneficial, it is

81a
simply requires a special-education teacher, of which
there was at least one present at the July 2012
meeting. (A.R. 384–85). Furthermore, while the
presence of the ACCESS teacher likely would have
been beneficial, Natick accommodated the parents’
request to hold an IEP meeting before the start of the
school year, and can hardly be faulted for failing to
pull together an ideal team in the middle of the
summer.
Finally, there is no indication that any potential
shortfalls in the team composition compromised
C.D.’s right to an appropriate education or seriously
hampered the parents’ ability to participate in the
creation of her IEP. The transcript from the July
2012 meeting suggests that most of the parents’
specific questions about the ACCESS program were
answered. (see, e.g., A.R. 406–11). After the meeting,
and after the proposed IEP had already been
developed, the parents requested “study guides for
the 9th grade Access program.”
(A.R. 453).
McGovern responded that they “raise[d] good
questions about [C.D.’s] program of study” and
suggested that they meet with the lead ACCESS
teacher at the beginning of the school year to discuss
the curriculum. (Id.). Natick “cannot be faulted for
drafting an IEP that does not answer all of the
parents’ after-the-fact questions when the parents
were given an opportunity to participate in the IEP.”
Alloway Tp. Bd. of Educ. v. C.Q., 2014 WL 1050754,
not clear that Natick can be faulted for not including an
out-of-district teacher in its IEP team. See Roland M., 910 F.2d
at 995. Furthermore, C.D.’s private tutors were present at the
meeting and able to comment on her performance in the
general-education setting at McAuliffe. (A.R. 397–403).

82a
at *9 (D.N.J. March 14, 2014). With one minor
exception, the parents had all of their questions
about the ACCESS program—including questions
about the other students in the program, the number
of students, the schedule, the nature of instruction in
the program, and the ability of students in the
program to move into replacement or general
education classes—answered at the July 2012
meeting. (A.R. 406–11, 417–18).8
The
parents
also
contend
that
Natick
predetermined C.D.’s proposed placement in the
ACCESS program. “[P]redetermination occurs when
an educational agency has made its determination
prior to the IEP meeting, including when it presents
one placement option at the meeting and is unwilling
to consider other alternatives.
In such cases,
regardless of the discussions that may occur at the
meeting, the School District’s actions would violate
the IDEA’s procedural requirement that parents have
the opportunity ‘to participate in meetings with
respect to the identification, evaluation, and
educational placement of the child.’” H.B. ex rel. P.B.
v. Las Virgenes Unified Sch. Dist., 239 Fed. Appx.
342, 344 (9th Cir. 2007) (quoting 20 U.S.C.
§ 1415(b)(1)). “However, predetermination is not
8

C.D.’s father did ask whether students in the
English/Language Arts ACCESS class read the same books as
students in the general-education classes.
(A.R. 409).
McGovern responded that she did not know, but that C.D. would
likely be reading modified texts so that she could access texts at
her grade level. (Id.). In response to a question from one of
C.D.’s tutors about whether they would be reading actual texts
or things like recipes, McGovern assured the parents that
students in the ACCESS program read texts. (Id.).

83a
synonymous with preparation.” Nack ex rel. Nack v.
Orange City Sch. Dist., 454 F.3d 604, 610 (6th Cir.
2006). School districts may come to IEP meetings
with a proposal in mind, but must remain open to
input from parents and their experts. See G.D. v.
Westmoreland Sch. Dist., 930 F.2d 942, 947–48 (1st
Cir. 1991) (finding no predetermination despite the
fact that the district came to team meeting with draft
IEP); KD. ex rel. C. L. v. Department of Educ.,
Hawaii, 665 F.3d 1110, 1123 (9th Cir. 2011) (finding
no predetermination where district had a placement
in mind before meeting but considered alternatives).9
Here, there is certainly evidence that Natick
considered the ACCESS program to be an
appropriate placement for C.D. prior to the July 2012
IEP meeting. In a communication prior to that
meeting,
Dalan
stated
that
the
district’s
recommendation of the ACCESS program was based
on Dr. Imber’s most recent evaluations of C.D. as well
as their discussions at the May 2012 meeting. (A.R.
377). Dalan also stated that her observations of C.D.
at McAuliffe were not intended to change that
recommendation. (Id.). Furthermore, at the July

9

For example, courts have found predetermination where
school districts have unofficial policies of refusing certain
programs or placements regardless of a child’s individual needs,
making programming or placement decisions based purely on
financial considerations, or prohibiting parents from asking
questions during IEP meetings. See Deal v. Hamilton Cnty. Bd.
of Educ., 392 F.3d 840, 855–59 (6th Cir. 2004); W.G. Bd. of Trus.
of Target Range Sch. Dist. No. 23, 960 F.2d 1479 (9th Cir. 1992)
(finding predetermination where district decided placement
prior to IEP meeting and “assumed a ‘take it or leave it’ position
at the meeting”).

84a
2012 meeting, representatives for Natick expressed
reluctance to reconsider their recommendation of the
ACCESS program, despite statements from the
parents’ consultants that C.D. was able to perform
well in a general-education setting with some
additional one-on-one support. (A.R. 402, 413–14).
They expressed concern about the discrepancy
between their description of her abilities and her low
test scores, and stated that, “on paper,” the ACCESS
program was the most appropriate placement to meet
her needs. (Id.).
Coming to an IEP meeting with a proposal in mind
and then declining to change that proposal after
considering the parents’ input does not amount to
predetermination. Pre-meeting consideration only
amounts to predetermination if the district refuses to
consider the input, objections, and suggestions of the
parents such that they are denied the opportunity to
meaningfully participate in the IEP development
process. Nack, 454 F.3d at 610.
Here, there is no evidence that representatives for
Natick were following an unofficial policy in
recommending the ACCESS program, that they
recommended the ACCESS program based solely or
even predominantly on financial considerations, or
that they steadfastly refused to consider alternative
placements. As the hearing officer noticed, while the
district never formally proposed an IEP including
replacement classes in 2012, it did initially
recommend starting C.D. in replacement classes for
the 2012–13 school year and then reconvening in the
fall to create a new IEP. (A.R. 370). Furthermore,
there is evidence that the recommendation of the
ACCESS program did take into account some of the

85a
concerns raised by the parents at the July 2012
meeting. For example, representatives for Natick
believed that the ACCESS program would help
address the parents’ concerns about the block
schedule at Natick High School. (A.R. 408–09). In
addition, they made clear that the proposal was
flexible and that they would re-evaluate C.D.’s
placement in October 2012, after they had more
direct experience with her. (A.R. 419). Because the
record shows that representatives for Natick
meaningfully considered the parents’ input when
proposing C.D.’s placement in the ACCESS program,
and remained open to reconsidering her placement in
the future, they did not predetermine C.D.’s
placement in violation of the IDEA.
The parents also contend that Natick denied them
the opportunity to participate meaningfully in the
IEP process by not allowing them to observe the
ACCESS program. Under Massachusetts law, school
districts are required, “upon request by a parent, [to]
provide
timely
access
to
parents
and
parent-designated independent evaluators and
educational consultants for observations of a child’s
current program and of any program proposed for the
child.”
Mass. Gen. Laws ch. 71B, § 3.
The
administrative record shows that the parents
requested the opportunity to observe classes at
Natick at the end of the 2011–12 school year, but
that, due to scheduling complications including
standardized testing, special events, and final exams,
Natick was not able to find a time for them to
observe.
(A.R. 370).
However, Natick did
recommend holding a team meeting in October 2012
to reevaluate C.D.’s placement, and stated that the

86a
parents would be welcome to observe classes prior to
that meeting. (Id.). While the parents thus did not
have the opportunity to observe classes prior to the
July 2012 IEP meeting, Natick cannot be faulted for
failing to find an appropriate time for observations at
the end of the school year. Similarly, because the
parents requested an IEP meeting in the summer,
Natick cannot be faulted for their inability to observe
classes prior to that meeting. Natick’s offer to have
the parents observe classes in the fall was reasonable
and, under the circumstances, would have
constituted “timely access.”
2. Substantive Challenges
Plaintiffs contend that the hearing officer erred in
concluding that the 2012–13 IEP was reasonably
calculated to provide a FAPE in the least restrictive
environment. Their primary complaint appears to be
that the ACCESS program was more restrictive than
necessary to provide an adequate education, and that
the hearing officer failed to consider evidence in the
record showing that C.D. had performed well in the
general-education setting at McAuliffe.
The IDEA mandates a preference for educating
students with disabilities in general-education
settings. The IDEA’s requirement that students with
disabilities be educated in the “least restrictive
environment” means that “[m]ainstreaming may not
be ignored, even to fulfill substantive educational
criteria.” Roland M., 910 F.2d at 993. Rather, the
benefits to be gained from mainstreaming must be
weighed against the educational improvements that
could be attained in a more restrictive (that is,
non-mainstream) environment. Id.

87a
The hearing officer concluded that C.D.’s
placement in the ACCESS program was “less
restrictive than [her] McAuliffe placement,” where
she was in general-education classes with the
assistance of a tutor, “because [the ACCESS
placement] did not provide for the assistance of a one
to one aide throughout the day. It provided [C.D.]
the opportunity to independently access academic
services in a program specifically designed for
students with profiles similar to [hers].” (A.R. 1565).
It is likely true that the ACCESS program provides
greater individual autonomy to the student than a
one-on-one aide, and in that sense is “less
restrictive.” But as a general matter, a separate
program for students with disabilities is not less
restrictive than a placement in mainstream,
general-education classes. While C.D. may well have
benefitted academically from a placement in the
ACCESS program—a conclusion well within the
educational expertise of the agency—such academic
benefits “cannot be invoked to release an educational
agency from compliance with the [IDEA’s]
mainstreaming provisions.” Roland M., 910 F.2d at
993 (internal quotation marks omitted). It is unclear
whether the hearing officer adhered to the
requirement that the benefit of mainstreaming be
weighed against the benefits of a more restrictive
environment.
Under the circumstances, on this
issue, remand is appropriate in order to permit the
hearing officer to consider, or at a minimum clarify,
whether the 2012–13 IEP was reasonably calculated
to provide a FAPE in the “least restrictive”
environment possible.

88a
Plaintiffs also contend that the 2012–13 IEP was
defective because Natick had not yet conducted a
transition assessment. Under Massachusetts law,
transition planning is to begin when students are
14 years old, and C.D. was 15 when the 2012–13 IEP
was created. (A.R. 2602). However, the IDEA does
not require a stand-alone transition plan.
See
Sebastian M., 744 F. Supp. 3d at 407. Nor does
Massachusetts law require a separate transition
assessment. Under Massachusetts law, transition
assessment and planning can consist of informal
discussion of the student’s postsecondary goals, her
skills and strengths that might contribute to that
goal as well as the skill and strengths she would need
to acquire in order to achieve that goal, and the
supports and services necessary to help her make
progress towards achieving that goal. See Technical
Advisory SPED 2014-4: Transitional Assessment in
the Secondary Transition Planning Process (“SPED
2014-4”) (“Any assessment that is conducted when a
student on an IEP is aged 14-22 can be viewed as a
transition assessment, in that it affords information
which can be used to discern the student’s vision;
understand
the
student’s
needs,
strengths,
preference, and interests; and measure progress
towards the acquisition of skills.”).
C.D.’s post-secondary goals were discussed at both
the May and July 2012 meetings, and Natick
discussed available services that might help her
achieve those goals. (A.R. 326–28; 391–95). The
parents stated that they hoped she would receive a
high-school diploma, but did not yet know of any
specific postsecondary goals. (A.R. 326–27; 391–93).
The proposed IEP stated, under the heading of

89a
“Vision Statement,” that C.D.’s parents hoped that
she would receive a high-school diploma and
vocational training. (A.R. 2606). Furthermore, the
IEP specified that in order to help C.D. achieve her
goals, she would be provided with vocational services.
(A.R. 2617).
Because transition services were
discussed at the team meeting and mentioned in the
IEP, there was no error in the 2012–13 IEP based on
transition planning. See Sebastian M., 744 F. Supp.
3d at 407 (“Because transition services were
mentioned in the IEPs and because transition
services were actually provided to [the student], there
is no error here based on transition planning.”).
C. Adequacy of the 2013–14 IEP
Plaintiffs contend that the 2013–14 IEP was
procedurally improper because Natick failed to
include accurate and up-to-date information
regarding C.D.’s then-present levels of performance.
However, according to the 2013–14 IEP, Natick was
unable to update C.D.’s current performance level
because Learning Prep—the school C.D. had
attended for the past year—had not provided
sufficient data regarding her performance. (A.R.
2584).
Plaintiffs fail to put forth any specific
information that Natick should have considered in
creating the 2013–14 IEP but did not.
However, because the 2013–14 IEP was virtually
identical to the 2012–13 IEP, it is subject to the same
substantive concerns as the prior IEP regarding
whether placement in the ACCESS program was the
least restrictive environment possible. Accordingly,
and for the same reasons stated above, remand is
appropriate to enable the hearing officer to determine

90a
whether the 2013–14 IEP provided for an appropriate
education in the least restrictive environment
possible.10
D. Adequacy of the 2014–15 IEPs
1. Procedural Challenges
The parents contend that Natick predetermined
the change in C.D.’s disability classification from
“intellectual” to “communication” prior to the team
meeting on June 13, 2014. At the June 13 meeting,
representatives for Natick stated that, based on the
results of C.D.’s three-year re-evaluations, they were
“looking at noting her disability category as
communication” instead of intellectual. (A.R. 1007).
C.D.’s father was surprised, and stated, “I just think
that the parents need a little bit of time to process
that and, you know, it certainly can be proposed. But
it probably just needs some discussion.” (A.R. 1008).
Donna Cymrot, the school psychologist, responded, “I
respect that it takes a little time to digest a change....
[C]ertainly we can discuss it further if you care to.”
(Id.).
10

Plaintiffs also contend that the first IEP proposed for the
2014–15 year was not reasonably calculated to provide a FAPE
in the least restrictive environment. However, for the reasons
stated below, any challenge to the substantive adequacy of that
IEP is moot because it was replaced prior to the start of the
relevant school year. See Pohorecki v. Anthony Wayne Local
Sch. Dist., 637 F. Supp. 2d 547, 555 (N.D. Ohio 2009).
Furthermore, because plaintiffs do not appear to challenge the
adequacy of the second and third IEPs proposed for the 2014–15
years on the grounds that they were not reasonably calculated
to provide a FAPE in the least restrictive environment (see Pl.
Reply at 2) remand on this issue is only necessary as to the
2012–13 and 2013–14 IEPs.

91a
As discussed above, pre-meeting consideration only
amounts to predetermination if the district refuses to
consider the input, objections, and suggestions of the
parents, such that they are denied the opportunity to
participate meaningfully in the IEP development
process. Nack, 454 F.3d at 610. It appears from the
administrative record as though representatives for
Natick were willing to consider the parents’ input
and further discuss the change in C.D.’s classification
with them. Thus, the record does not support the
parents’ contention that Natick predetermined the
reclassification. Furthermore, even if there had been
some
procedural
inadequacy
regarding
the
reclassification, there is no evidence that the change
in C.D.’s disability classification impeded the parents’
ability to participate meaningfully in the IEP
development process or changed the nature of the
services provided to C.D.11
The parents also contend that Natick denied them
the meaningful opportunity to participate in the IEP
process by unreasonably restricting their ability, as
well as that of their consultants, to observe classes at
Natick High School.
Under Massachusetts law,
school districts are not only required to provide
timely access to parents and their evaluators or
consultants for observation, they are also prohibited
from imposing any
conditions or restrictions on such observations
except those necessary to ensure the safety of
11

After discussing the potential change in C.D.’s disability
category, a representative for Natick stated “there is no one
here that doesn’t think that [C.D.] needs to have continued
support from a special education IEP.” (A.R. 1009).

92a
children in a program or the integrity of the
program while under observation or to protect
children in the program from disclosure by an
observer of confidential and personally
identifiable information in the event such
information is obtained in the course of an
observation by a parent or designee.
Mass. Gen. Laws ch. 71B, § 3. The parents contend
that Natick imposed an unreasonable restriction by
prohibiting their experts from asking any questions
during their observations.
Nothing in either § 3 or the Commonwealth’s
guidance concerning that section explicitly requires
that parents or their experts be given the opportunity
to speak with school staff during the course of their
observations. See Mass. Gen. Laws ch. 71B, § 3;
Technical Assistance Advisory SPED 2009-2:
Observation of Education Programs by Parents and
Their Designees for Evaluation Purposes (“SPED
2009-2”). Nonetheless, the BSEA has, in the past,
concluded that allowing experts the opportunity to
ask questions of teachers and other service providers
is essential to enable those experts to conduct
thorough and meaningful evaluations of proposed
IEPs. See In Re: Northbridge Public Schools, BSEA
# 09-2533 (Oct. 30, 2008). However, in order to avoid
classroom disruption, school districts do not need to
permit experts to ask questions during the
observations themselves, but may set aside a
separate time for questions afterward. See id.
Here, it appears that Natick did not set aside time
for the parents’ experts to ask questions related to
their observations. Furthermore, there is evidence in

93a
the administrative record that the experts were
unable to make a full evaluation of the adequacy of
the proposed IEP given their inability to ask followup questions. (A.R. 3148, 3153, 3755). However, any
procedural error was cured when the parents’ experts
where able to submit clarifying questions in writing.
The parents have not pointed to any evidence in the
record that the written questions and answers were
inadequate to enable their experts to make a
meaningful evaluation of the appropriateness of
Natick’s proposed IEPs.
2. Substantive Challenges
Plaintiffs next contend that the first two IEPs
proposed for the 2014–15 year were not reasonably
calculated to provide a FAPE because a transition
assessment had not yet been conducted. As to the
first IEP proposed for the 2014–15 year, it was
replaced prior to the start of the relevant school year,
and thus any challenge to its adequacy is moot. See
Pohorecki, 637 F. Supp. 2d at 555 (concluding that
IEP that was never implemented and was replaced
prior to start of relevant school year “is not ripe for
adjudication as to whether it provided [student] with
a FAPE”). As to the second IEP proposed for 2014–
15, transition planning was discussed at the June
2014 team meeting and mentioned in the IEP. (A.R.
1085, 2557–58). That is sufficient to satisfy the
requirement for transition planning. See Sebastian
M., 744 F. Supp. 3d at 407.
Plaintiffs also contend that the first proposed IEP
for 2014–15 (dated April 15, 2014 through April 15,
2015) was not reasonably calculated to provide C.D.
with a FAPE in the least restrictive environment.

94a
Again, however, that IEP was only intended to be
provisional and was replaced in June 2014, prior to
the start of the 2014–15 school year. Any challenge
to its adequacy is therefore moot. See Pohorecki, 637
F. Supp. 2d at 555.
E. The Hearing Officer’s
Witness Testimony

Treatment

of

Plaintiffs also contend that the hearing officer
erred by giving insufficient weight to the testimony of
their witnesses and giving too much weight to the
testimony of Natick’s witnesses.
However,
“[c]redibility determinations . . . are the province of
the factfinder, which in this case is the Hearing
Officer,” and should not be “recalibrate[d]” absent
compelling evidence. Andover Sch. Comm. v. Bureau
of Special Educ. Appeals of Div. of Admin. Law
Appeals, 2013 WL 6147139, at (D. Mass. Nov. 21,
2013). Accord Sebastian M., 685 F.3d at 86 (“The
valuation of expert testimony is precisely the sort of
first-instance administrative determination that is
entitled to judicial deference by the district court.”).
Here, there is no compelling evidence to warrant
disregarding the hearing officer’s credibility
determinations.
1. Testimony of C.D.’s Father
Plaintiffs contend that the hearing officer
improperly discounted the testimony of C.D.’s father.
They first contend that the hearing officer erred by
discrediting the father’s statement that the 2012–13
IEP was inadequate because it contained the same
goals as the McAuliffe IEP, even though the
McAuliffe IEP involved education in an inclusive,
general-education setting, while the Natick IEP did

95a
not. The hearing officer discredited that statement
based on the fact that the father did not have any
credentials in education. (A.R. 1566). Plaintiffs
contend that by discrediting that statement, “the
hearing
officer
completely
disregarded
the
fundamental importance Congress placed on parental
participation in the educational decision-making
process under the IDEA.” (Pl. Am. Mem. at 31–32).
However, hearing officers are free to disregard parent
testimony when that testimony is “impressionistic
and not based upon any expertise.” J.E. v. Boyertown
Area Sch. Dist., 834 F. Supp. 2d 240, 251 (E.D. Pa.
2011).
Disregarding such testimony under
appropriate circumstances does not improperly strip
parents of their right to participate in the
development of IEPs.
Plaintiffs also contend that the hearing officer
erred by dismissing the father’s statement that the
hours of service in the 2012–13 IEP were less than
those provided in the prior IEP. The hearing officer
concluded the father “did not present any credible
evidence to support that presumption.” (A.R. 1566).
Plaintiffs now point to a chart provided to Natick by
the father indicating that the hours of service
provided by the proposed IEP would be lower than
the hours of service provided by the prior IEP. (See
A.R. 3432).
However, in connection with his
testimony regarding the reduced programming, the
father also testified that he understood that the IEP
proposed by Natick offered different programing,
including different types of classes, from the prior
IEP at McAuliffe.
(A.R. 1666).
Given those
differences, and even assuming that the hours of
service were in fact lower, there is nothing in the

96a
record to suggest that the decrease in hours alone
would have rendered the IEP inadequate to provide a
FAPE.
Finally, plaintiffs contend that the hearing officer
erred by disregarding their concern as to whether the
ACCESS program would prepare C.D. to take the
MCAS.
The hearing officer noted the parents’
concern, but stated that their belief that the ACCESS
program would be inappropriate because it would not
prepare C.D. for the MCAS “was an assumption
made by Parents and their evaluators that was not
supported by the evidence before me.” (A.R. 1566).
The parents now contend that the hearing officer
failed to consider evidence showing that students in
the ACCESS program are not prepared for the
MCAS. However, there is also evidence in the record
(including testimony at the hearing from Natick
teachers) showing that students were able to move
from the ACCESS program into replacement classes
when their abilities and classroom performance
suggested that such a move was appropriate, and
that students in the replacement program are
generally prepared to take the MCAS. (See A.R.
2298, 2396, 2439–40). It was within the hearing
officer’s discretion to credit that testimony over that
of the parents. See Andover Sch. Comm., 2013 WL
6147139, at *14.
2. Testimony of Nan Coellner
Plaintiffs next contend that the hearing officer
erred by allegedly omitting all of the testimony of
C.D.’s tutor, Nan Coellner. However, the hearing
officer recounted Coellner’s testimony in her
summary of the evidence, and considered that

97a
testimony in her analysis. (See A.R. 1553, 1565,
1569). The hearing officer ultimately credited the
testimony of others rather than that of Coellner’s, but
did not, as plaintiffs contend, fail to consider any of
her testimony.
3. Testimony of Suzanne Flax and Dr. Steve
Imber
Plaintiffs further contend that the hearing officer
erred by discrediting the testimony of C.D.’s speech
therapist, Suzanne Flax, and their independent
evaluator, Dr. Steve Imber. The hearing officer’s
order stated that she did not rely on the testimony of
either Flax or Dr. Imber because she did not find
them credible. (A.R. 1570–71). As to Flax, the
hearing officer reasoned that while she “had
appropriate credentials and experience,” she made
statements during her testimony that “caused her to
lose credibility.” (A.R. 1570). In particular, the
hearing officer noted that Flax testified that C.D.
“would not benefit at all from any inclusion,” a
statement not supported by any other witness and
contrary to her own prior recommendations for C.D.
(Id.). As to Dr. Imber, the hearing officer stated that
while he previously supported an inclusive
placement, “he no longer believed that inclusion was
as important for [C.D.],” and that, on that basis, it
appeared that he “changed his recommendations to
align with which ever placement she was in at the
time he was asked to state his opinion.” (A.R. 1570–
71).
Plaintiffs have failed to produce any evidence
suggesting that this Court should now “recalibrate”
the hearing officer’s credibility determinations, and

98a
the
Court
will
therefore
defer
to
those
determinations. See Andover Sch. Comm., 2013 WL
6147139, at *14; Sebastian M., 685 F.3d at 86.
4. Testimony of Arlyn Roffman
Plaintiffs next contend that the hearing officer
improperly disregarded the testimony of Arlyn
Roffman, an expert in the field of transition services.
Roffman testified at the hearing as to her opinion of
the transition services proposed by Natick. Plaintiffs
contend that the hearing officer “without explanation
summarized [Roffman’s testimony] as, ‘she opined
that the transition plan contained in S-4 was not
properly filled out.’” (Pl. Mem. at 37). It is true that
the hearing officer stated that “[m]ost of
Dr. Roffman’s criticisms of the transition services
Natick proposed related to her opinion that forms
were not filled out correctly.” (A.R. 1569). While it
may not have constituted the majority of her
testimony, Roffman did testify regarding the way in
which the transition planning forms were completed.
(A.R. 1755–56, 1780). More significantly, however,
the hearing officer did not disregard the rest of her
testimony.
The hearing officer also addressed
Roffman’s opinions that it was inappropriate for C.D.
to receive vocational services in a one-on-one setting
as part of an extended school day and that the
proposed services were not adequately tailored to
C.D.’s interests. (A.R. 1569). The hearing officer
concluded that the testimony of two Natick
witnesses, McGovern and Cymrot, adequately
addressed those concerns and suggested that the
transition services proposed were not inadequate on
those grounds.
(Id.).
While plaintiffs question
Cymrot’s credibility as a witness, they have failed to

99a
offer any reason to second-guess the hearing officer’s
determination that the testimony of McGovern and
Cymrot was more credible on these points than that
of Roffman.
5. Testimony of Donna Cymrot
Plaintiffs next contend that the hearing officer
erred by crediting the testimony of Donna Cymrot, a
psychologist at Natick High School, concerning the
appropriateness of a “blended program” of instruction
that would combine some services in the ACCESS
program with others in general-education classes.
The hearing officer credited the testimony of Cymrot,
as well as two other Natick witnesses (McGovern and
Liptak), in concluding that the father’s objection to
C.D. being placed in any classes in the ACCESS
program did not a support finding that the 2014–15
IEP, which proposed a blended program, was
inadequate. (A.R. 1567–68). In particular, the
hearing officer credited Cymrot’s testimony that a
blended program would enable C.D. to address areas
of weakness, such as math, more intensively in the
ACCESS program, while also allowing her to receive
instruction in other areas in less-restrictive
replacement classes. (Id. at 1568).
Plaintiffs point to a number of statements that
Cymrot made on cross-examination that they contend
undermine her credibility as a witness. (Pl. Mem. at
38). Many of those statements relate to Cymrot’s
opinion regarding the change in C.D.’s disability
classification, and do not appear to be relevant to her
testimony concerning the appropriateness of a
blended program. The rest of the statements suggest
that Cymrot had not reviewed the entire

100a
administrative record. However, the record shows
that Cymrot was well-versed regarding C.D.’s
strengths and weaknesses.
(See A.R. 1007–09).
There was thus adequate evidence in the record to
support the hearing officer’s conclusion that Cymrot
was a credible witness, and the Court will not now
second-guess that determination.
6. Testimony of Karen Liptak
Next, plaintiffs contend that the hearing officer
erred in crediting the testimony of Karen Liptak, a
special-education teacher at Natick High School. As
with Cymrot, the hearing officer credited Liptak’s
testimony regarding the appropriateness of a blended
program over the father’s testimony that placement
in any ACCESS classes was inappropriate.
Specifically, the hearing officer credited Liptak’s
testimony that C.D. would benefit from the
opportunity to interact with different peers in the
different classes. (A.R. 1568).
Liptak testified that she had seventeen years of
experience as a special-education teacher, that she
was familiar with both the ACCESS program and
replacement classes at Natick High School, and that
she had some familiarity with C.D. from a summer
program she attended at Natick at which Liptak was
a teacher. (A.R. 2321–26). It appears reasonable,
based on that experience, to credit Liptak’s testimony
regarding the benefits of a blended program. While
plaintiffs point out that Liptak only had limited
experience with C.D. in the summer of 2012, that is
not a sufficient basis on which to overrule the
hearing officer’s credibility determination.

101a
7. Testimony of Christine Michelson
Finally, plaintiffs contend the hearing officer erred
by crediting the testimony of ACCESS teacher
Christine Michelson over that of the parents and
their witnesses. Specifically, plaintiffs contend that
the hearing officer erred by relying on Michelson’s
opinion that the IEP 2014–15 IEP was appropriate
because Michelson had neither met nor observed C.D.
and had not reviewed all of the available evaluation
reports.
However, while the hearing officer
recounted Michelson’s testimony in her summary of
the evidence, it does not appear that she relied on
that testimony in finding that the IEPs proposed for
2014–15 were appropriate. (See A.R. 1560–61, 1567–
69). In her consideration of the appropriateness of
those IEPs, the hearing officer specifically referred to
and relied upon the testimony of other Natick
witnesses—including McGovern, Cymrot, Litpak,
Brown, and Karian—but did not refer to Michelson’s
testimony. Plaintiffs’ contention accordingly appears
to be misplaced.
F. Hearing Officer’s Failure to Consider the
Expert Reports of Dr. Imber, Flax, and
Roffman
Plaintiffs contend that the hearing officer erred by
failing to consider reports that were prepared by
Dr. Imber, Flax, and Roffman and provided to Natick
as exhibits five business days prior to the hearing.
The hearing officer stated that she “did not rely upon
the most recent reports submitted by Ms. Flax or
Dr. Imber, as they were first presented to Natick as
exhibits in the hearing and the [IEP] Team did not
have the opportunity to review them prior to the

102a
hearing.” (A.R. 1571). She similarly stated that she
“did not rely upon the written report of Dr. Roffman
as it was not received by Natick prior to the hearing.”
(Id.).
Plaintiffs contend that the hearing officer’s failure
to rely on those reports was erroneous, because the
reports were timely submitted to Natick as exhibits
prior to the hearing in accordance with Rule IX of the
BSEA rules and 45 C.F.R. § 300.502. They concede
that the reports—which were completed after the
development of the third 2014–15 IEP—were not
relevant to the hearing officer’s determination of the
adequacy of that IEP, as they were not available to
Natick at the time the IEP was promulgated. (Pl.
Reply at 28). They contend, however, that the
reports should have been considered for other
purposes, such as witness credibility, their
assessments of the prior IEPs, and their statements
concerning their inability to obtain information from
Natick.
It is clear from the record that the testimony of
Dr. Imber, Flax, and Roffman provided ample
information regarding their professional experiences
and expertise, their experience with and knowledge
of C.D., their assessments of the prior IEPs, and their
abilities or inabilities to obtain information from
Natick. (See, e.g., A.R. 2015–23, 2026–2030, 2034,
2040, 2043–52 (Imber); 1840–43, 1845–46, 1854,
1855–56, 1870–72 (Flax); 1745–47, 1751–57, 1761,
1762–64 (Roffman)). Plaintiffs have failed to identify
any additional evidence contained within the reports
that would have been anything other than
cumulative of their testimony at the hearing. There
is, therefore, no basis from which to conclude that

103a
hearing officer’s failure to consider the results
themselves resulted in any kind of error.
G. The Hearing Officer’s Determination as
to Plaintiffs’ Discrimination Claims
In their complaint before the BSEA, plaintiffs
alleged that Natick engaged in discrimination and
retaliation in violation of 42 U.S.C. § 1983 and § 504
of the Rehabilitation Act.
The hearing officer
concluded that the record was unclear as to the basis
of the allegation and that the parents had “not met
their burden of showing that Natick engaged in
discrimination” and that the BSEA “does not have
jurisdiction over claims of discrimination under
Section 1983.” (A.R. 1570). Plaintiffs now contend
that the hearing officer ignored substantial evidence
in the record suggesting that Natick discriminated
C.D. on the basis of her disability. They contend that
the record was “replete” with evidence of
discrimination, citing to evidence concerning the
restrictions placed on plaintiffs’ consultants when
visiting classes at Natick High School.
As to the § 1983 claim, the hearing officer was
correct to conclude that she lacked jurisdiction.
While section 1983 claims are sometimes permitted
to be brought along with IDEA claims in a BSEA
proceeding, the BSEA does not have the jurisdiction
to resolve such claims. See In re Rafael v. Norton
Public Schools, BSEA # 1609348, at 8–9 (Aug. 30,
2016). Section 1983 claims may be brought before
the BSEA only for the purpose of developing a
relevant factual record to aid later court adjudication.
See id.; CBDE Pub. Schs. v Massachusetts Bureau of
Special Educ. Appeals, 2012 WL 4482296, at *8 n.7

104a
(D. Mass. Sept. 27, 2012).
Because plaintiffs
challenge only the hearing officer’s determination as
to the § 1983 claim, and do not appear to bring an
independent claim, that claim must fail.
As to the § 504 claim, plaintiffs bear the burden of
proving four elements: “(1) that [C.D.] is disabled;
(2) that she sought services from a federally funded
activity; (3) that she was ‘otherwise qualified’ to
receive those services; and (4) that she was denied
those services ‘solely by reason of her ... disability.”
Lesley v Hee Man Chie, 250 F.3d 47, 53 (1st Cir.
2001) (quoting 29 U.S.C. § 794(a)). Plaintiffs appear
to contend that Natick discriminated against C.D. on
the basis of her disability by placing restrictions on
the ability of her consultants to ask questions while
observing classes. However, plaintiffs have failed to
offer any evidence suggesting that Natick imposed
those restrictions “solely by reason of [C.D.’s] . . .
disability.” The record suggests that Natick imposed
those restrictions because the consultants had been
disruptive during a prior observation (see A.R. 3146),
and plaintiffs have not offered any evidence to
suggest that reason was pretextual. They have not,
for example, offered any evidence “showing
weaknesses,
implausibilities,
inconsistencies,
incoherencies, or contradictions in the . . . proffered
legitimate reasons” provided by Natick.” D.B. ex rel.
Elizabeth B. v. Esposito, 675 F.3d 26, 42 & n.10 (1st
Cir. 2012) (holding that plaintiffs failed to show that
school district’s proffered legitimate, non-retaliatory
explanations for its actions were pretextual).

105a
IV. Conclusion
For the foregoing reasons, plaintiffs’ motion for
summary judgment is DENIED. The matter is
hereby REMANDED in part to the Board of Special
Education Appeals for further proceedings, consistent
with this opinion, as to whether the 2012–13 and
2013–14 IEPs provided a free appropriate public
education in the least restrictive environment
possible.
So Ordered.

106a

APPENDIX F

July 24, 2015
COMMONWEALTH OF MASSACHUSETTS
Division of Administrative Law Appeals
Bureau of Special Education Appeals

DECISION
BSEA # 1408860

BEFORE
CATHERINE PUTNEY-YACESHYN
HEARING OFFICER
LAURIE R. MARTUCCI,
ATTORNEY FOR STUDENT
ALISIA ST. FLORIAN,
ATTORNEY FOR NATICK PUBLIC SCHOOLS

107a
MEMORANDUM
To:

Parties in the matter of Student v. Natick
Public Schools, BSEA # 1408860

From: The Bureau of Special Education Appeals
Date:

July 28, 2015

Re:

Decision

There were three paragraphs of the final decision of
this matter which were inadvertently omitted from the
version of the decision which was sent to the Parties
on July 24, 2015. Enclosed is the complete decision
including the three paragraphs which were omitted
and appear at pages 20–21. The BSEA regrets any
inconvenience this may have caused.

108a
COMMONWEALTH OF MASSACHUSETTS
DIVISION OF ADMINISTRATIVE LAW
APPEALS SPECIAL EDUCATION APPEALS
Student v.
Natick Public Schools

BSEA #1408860

DECISION
This decision is issued pursuant to M.G.L. c. 71B
and 30A, 20 U.S.C. § 1401 et seq., 29 U.S.C. § 794, and
the regulations promulgated under said statutes.
PROCEDURAL HISTORY
Parent requested a hearing on May 26, 2014 which
was scheduled for June 27, 2014. Natick Public
Schools
(hereinafter,
Natick)
requested
a
postponement of the initial hearing date on June 2,
2014, which request was allowed. There was a
pre-hearing conference on July 14, 2014 and the
hearing was rescheduled to proceed on November 18,
19, and 20, 2014. On September 30, 2014, Natick
requested a postponement of the hearing which was
allowed. The hearing was rescheduled for January 5,
6, and 7, 2015. On January 7, 2015, the matter was
reassigned
to
Hearing
Officer
Catherine
Putney-Yaceshyn. There were telephone conference
calls on January 28 and March 3, 2015. The hearing
was rescheduled to proceed on May 12, 13, and 27,
2015. The hearing was held on May 12, 13, 27, and 28,
2015. The Parties requested a postponement of the
closing of the record to submit closing arguments. The
hearing officer allowed their request and set a
deadline of June 12, 2015 for the submission of closing

109a
arguments. Natick submitted its closing argument on
June 12. Parents submitted their closing argument on
June 15, 2015 and the record closed8 on that date.
Those present for all or part of the hearing were:
Mother
Father
Nan Coellner
Arlyn Roffman
Suzanne Flax
Steve Imber
Erin Gibbons
Carole Tsang
Nancy
D’Hemecourt
Cynthia Manning
Laurie Martucci
Lindsay McGovern
Timothy Luff
Donna Cymrot
Karen Liptak
Christine
Michelson

Parents’ special education
teacher/consultant
Parents’ transition consultant
Parents’ speech language
pathologist
Parents’ educational
consultant
Parents’ Neuropsychologist
Transition Coordinator,
Learning Prep School
Teacher, Learning Prep School
High School Principal,
Learning Prep School
Attorney for the Parents
Assistant Direct of Student
Services, Natick Public Schools
Director of Student Services,
Natick Public Schools
School psychologist, Natick
Public Schools
Special education teacher,
Natick Public Schools
Special education teacher,
Natick Public Schools

Natick did not object to Parents’ late filing of its closing
argument.
8

110a
Sarah Karian
Katheryn Brown
James Franciose
Anne Bohan
Carol Kusinitz
Alisia St. Florian
Catherine PutneyYaceshyn

Speech language pathologist,
Natick Public Schools
Transition coordinator, Natick
Public Schools
Special education teacher,
Natick Public Schools
Court Reporter
Court Reporter
Attorney, Natick Public
Schools
Hearing Officer

The official record of this hearing consists of
Parent’s exhibits marked P-1 through P-90, and
Natick Public Schools’ exhibits marked S-l through
S-53 and approximately six hours of recorded oral
testimony.
ISSUES
1. Whether Natick complied with the Student’s
IEP in providing summer services during the
summer of 2012 and if not whether Student is
owed any compensatory educational services.
2. Whether the IEP proposed by Natick for the
period from 2012–2013 was reasonably
calculated to provide the student with a free
appropriate public education in the least
restrictive environment.
3. Whether the IEP proposed by Natick for the
period from 2013–2014 was reasonably
calculated to provide the student with a free
appropriate public education in the least
restrictive environment.

111a
4. Whether the three IEPs proposed during the
period from 2014–2015 were reasonably
calculated to provide the student with a free
appropriate public education in the least
restrictive environment.
5. Whether there were any procedural violations
committed by Natick that resulted in the denial
of FARE to the Student.
6. Whether or not Natick engaged in any
discrimination or retaliation in violation of
Section 1983 and Section 504.
7. If Natick’s IEPs are found to have been
deficient, whether Parents are entitled to
reimbursement for their unilateral placement
of Student at the Learning Prep School.
***
counselors could best answer specific questions
and would be available around August 20.
(Imber)
8. The proposed IEP indicated that Student was
attending the Natick Extended School Year
program and that she was making slow
progress while working on her IEP goals and
objectives. The Narrative Description of School
District Proposal indicated that the services
would be delivered through the Access program.
The IEP contained goals in the following areas:
communication, mathematics, socialization/
peer interaction, reading comprehension,
writing composition, content vocabulary and
study skills. The service delivery grid contained
consultation services in the area of speech
language 1 x 15 minutes per cycle and

112a
consultation between the staff and learning
center teacher l x 15 minutes per cycle. The
B grid contained academic/electives with a
“student support facilitator” (SSF) 9 x
80 minutes per cycle. The C grid contained
speech language services with the speech
language pathologist 2 x 30 minutes per cycle;
mathematics with the learning center teacher
and SSF 3 x 80 minutes per cycle; science with
the learning center teacher and SSF 3 x
80 minutes per cycle; vocational services with
the learning center teacher/SSF 3 x 80 minutes
per cycle; social studies with learning center
teacher and SSF 3 x 80 minutes per cycle,
English/Language Arts with the learning center
teacher and SSF 3 x 80 minutes per cycle, and
extended school year services. (P-20, S-6)
9. The Nonparticipation Justification section of
the IEP stated that Student requires specially
designed instruction in small group classes
outside of the general education setting for all
core academic content areas and for
vocational/post-secondary skill development
using modified curriculum and approaches in
order to make progress. (P-20, S-6)
10. Parents rejected the IEP and placement in full
on or around August 9, 2012. Father attached
a document indicating his reasons for the
rejection. It stated that because Student had
been in a general education classroom for most
of her academics for the past three years, he
believed that placing her in a self-contained
classroom would hinder her growth. He also
rejected a number of goals because they were

113a
the same goals contained in the McAuliffe IEP
in the inclusion setting, and he thought the
goals should change if the setting was changing.
(S-6, Father) Father also believed that the
hours of service were decreasing from those
provided in the prior IEP. (S-6) Dr. Imber did
not believe the IEP was appropriate for
Student. His biggest concern was that it
proposed going from a primarily inclusive
environment [McAuliffe] to the most restrictive
environment Natick had. He did not believe
that she would have access to the general
education curriculum and thus would not be
able to pass MCAS. (Imber)
11. Parents’ attorney sent a letter to Natick’s
attorney dated August 14, 2012. The letter
reiterates Parents’ rejection of Natick’s
proposed IEP and placement and indicates that
Parents would be withdrawing Student from
Natick, placing her at Learning Prep, and
seeking reimbursement from Natick. (P-40)
12. Natick’s attorney responded to Parents’
attorney in a letter dated August 15, 2012. The
letter indicated that Natick declined to fund the
unilateral placement and stated that the
placement at Learning Prep was a more
restrictive placement than the in-district
program Natick had proposed for Student. The
letter also referenced a decision in
BSEA # 11-3131 in which the hearing officer
had affirmed the appropriateness of Natick’s
Access program for Student. (P-39)

114a
13. Lindsey McGovern, Natick’s Assistant Director
of Student Services, testified that she was
surprised that Parents and their experts found
Natick’s proposal of the Access program to be
too restrictive for Student and that they then
placed her in Learning Prep, an out-of-district
placement.
She
noted
that
the
recommendations of Parents’ consultants
(Ms. Flax and Dr. Imber) had significantly
changed over time.
She also noted that
Student’s profile had not changed significantly
and in fact she had made gains in expressive
language, which in Ms. McGovern’s view would
warrant a less restrictive, not more restrictive
setting. (McGovern)
14. Student attended Learning Prep for the 2012–
2013 school year. (P-56, P-55, P-54, P-53)
15. Natick convened the Team on May 22, 2013 and
Father participated in the meeting via
conference call. The Access teacher was at the
meeting, but Father did not have any questions
for the teacher. The proposed IEP provided for
support in the general education setting for
electives and the Team discussed a range of
options for electives. The Narrative Description
of School District Proposal indicated that the
services were to be delivered within the Access
Program. The goals and service delivery grid
were very similar to those previously proposed
by Natick. Father rejected the IEP and the
placement on or around June 10, 2013, He sent
a letter to Natick dated June 17, 2013
indicating that he would be enrolling Student at
Learning Prep for extended school year services

115a
in 2013 and for the 2013–2014 school year. He
stated that his decision was based on the same
concerns he had raised with respect to Student’s
IEP for the 2012–2013 school year. This IEP
contained a transition action plan which
provided for Student to meet with her guidance
counselor to explore post-secondary learning
opportunities and with the career specialist to
explore
employment
and
internship
possibilities. It also stated Student should
explore non-degree post-secondary programs.
The plan indicated Student would benefit from
exploring
vocational
opportunities
and
receiving vocational training. It stated Student
would learn to access community services and
transportation in the community, manage
money and increase her social thinking
strategies. (P-38, S-5)
16. Student attended Learning Prep for the 2013–
2014 school year. (P-52, P-51, P-50)
17. Natick sent Parents an Evaluation Consent
Form to perform her three-year evaluation on or
around March 12, 2014, Father rejected the
proposed evaluation in full indicating that
before he consented he wanted a description of
the tests that would be conducted and the
location. (S-24) Father later provided consent
for the proposed evaluations on April 15, 2014
and they were completed in May and June of
2014. (Father, S-24)
18. Student’s Team convened on April 15, 2014 and
proposed an IEP for the period from April 15,
2014 through April 15, 2015. The IEP was

116a
substantially similar to the IEPs proposed by
Natick for the two prior school years. The IEP
contained a transition planning Action Plan
which listed a number of items for Student to
work on in the transition realm. (S-4, P-18)
19. Father sent a letter to Natick, dated May 27,
2014, in which he rejected the proposed IEP and
placement. He further stated his intent to place
Student at Learning Prep for extended year
services and for the 2014–2015 school year.
(P-37)
20. Donna Cymrot, School Psychologist, Natick
Public Schools, conducted a psychological
evaluation of Student on May 23, 2014. She
concluded that Student continued to show
competencies
in
social/emotional
and
behavioral domains with fairly even cognitive
functioning in the Extremely Low/Borderline
range. She noted that cognitive development
was keeping pace with her age as indicated by
her stable scores. She noted that Student
continued to require special education supports
to access her education due to her cognitive and
language limitations.
(S-9) Ms. Cymrot
testified that Student had nicely developed
motor skills and age-appropriate social skills
and behavior. She noted that the area of
long-standing deficit had been in the area of
language (language understanding, language
expression, reading comprehension, and
written language). Additionally, Student has
strong executive function skill, is very
motivated and her behavior is age appropriate.
Based upon those factors, Ms. Cymrot believed

117a
that a language disability or communication
disability more accurately describes Student.
Ms. Cymrot stated that Student’s disability
category would not have any impact on her
service delivery. (Cymrot)
21. Mark D’Angelo, special education teacher,
Natick, completed an “achievement evaluation”
on June 6, 2014. He administered the Wechsler
Individual Achievement Test, Third Edition.
He noted that Student’s composite score in
reading fell at the thirteenth percentile, her
written expression score was at the seventh
percentile, and her reading comprehension and
fluency scores fell below the average range.
Both her mathematics and mathematics
fluency scores fell in the low range. He
recommended some accommodations. (S-10)
22. Sarah Karian, MS, CCC-SLP, Natick,
conducted a speech and language re-evaluation
on May 27, 2014.
Ms. Karian noted that
Student demonstrated strengths in pragmatic
language, word memory, and comprehension of
spoken paragraphs. She demonstrated less
developed skills in the areas of memory,
sentence formulation, and understanding
vocabulary and semantic relationships. She
reported that Student’s results revealed
significantly below average skills in the areas’
of receptive and expressive language, language
content and memory. She noted that Student’s
impairments in most areas of language impact
her ability to learn through traditional
measures and access regular education
curriculum. (S-11)

118a
23. The Team reconvened on June 13, 2014 to
review the results of Student’s three year
reevaluation. The Team meeting summary
indicates that the Team discussed Student
participating in an internship in an area of
interest as well as in extracurricular activities
such as the fashion club. Student had stated
that she is interested in cooking and fashion
and might be interested in going to school to
study one of those areas. The Team discussed
proposing a transition assessment of Student
and a 688 referral was recommended. The
Team proposed some modifications to the
previously proposed service delivery grid. It
continued to propose consultation in the areas
of speech language and academics for fifteen
minutes per cycle.
It added consultation
between the speech language pathologist and
Student’s outside speech language therapist for
six hours per year. The B grid included general
education social studies with a paraprofessional
2 x 80 minutes per cycle and health and
electives with general education staff and a
paraprofessional 2 x 80 minutes per cycle. The
C grid included speech/language services with
the speech language pathologist 2 x 45 minutes
per cycle (1 individual and 1 group session),
English Language Arts (Writing, Literature)
with a special education teacher 2 x 80 minutes
per
week
(small
group);
Reading
Comprehension with a special education
teacher 2 x 80 minutes per cycle in the Access
class; mathematics with a special education
teacher 2 x 80 minutes per cycle in the Access

119a
class; Academic Support/Transition with a
special education teacher 4 x 80 minutes per
cycle; science with a special education teacher
2 x 80 minutes per week. The C grid also
contained extended year services in the areas of
speech language therapy and academic support.
(S-20, S-4, P-17)
24. Father rejected the IEP and placement on or
around July 7, 2014. (P-36) He sent a letter to
Natick dated July 7, 2014 stating he was
rejecting the IEP because a transitional
assessment had not been done and he thought
such assessment would change all of the
benchmarks and objectives and because he
believed the total hours in the service delivery
grid exceeded the hours available in the school’s
4 day cycle, leaving no time for speech language
services. In the same letter he informed Natick
that Student would be attending Learning Prep
for the 2014–2015 school year and Parents
would seek reimbursement for Student’s
placement. (P-36) Father testified that he also
rejected the IEP because it contained placement
in Access classes and indicated that Student
would take the MCAS alternate assessment in
math. (Father)
25. Student attended Learning Prep for the 2014–
2015 school year. (Father, (P-47, P-48)
26. Katheryn Brown, Natick’s Transition and
Vocational Coordinator, conducted a transition
evaluation of Student on October 22, 20149.
Ms. Brown used the Transition Planning Inventory,
Employability
Skills
Inventory,
Vineland
II,
AIR
9

120a
(S-8, P-67) Ms. Brown concluded that Student
had clear interests in fashion, cooking, and
baking, and most of all, hairstyling and
make-up application. She noted that Student
would require further development to build her
knowledge of requirements and skills for
specific jobs, as she seemed completely unaware
of what training and skills will be necessary for
her to become a hairstylist or make-up artist.
She recommended Student participate in
transitional activities such as job shadowing
and internships in her two main areas of
interest. Ms. Brown made a number of specific
recommendations for IEP goals which are
described in her report. (S-8, P-67)
27. The Team reconvened on November 14, 2014 to
review the transitional assessment and revised
Student’s Transition Planning Form. (S-2,
P-15) The IEP, for the period from
November 14, 2014 through June 13, 2015,
proposed Student having an extended day in
order to receive the recommended transition
services. It provided that extended school day
services be provided by the transition
coordinator to address Student’s goals in career
awareness and readiness and independent
living skills.

Self-Determination Scale, Career Clusters Interest Survey, Test
of Interpersonal Competence for Employment, Things That Are
Difficult for Me Questionnaire, Personal Strengths Checklist,
Skills Checklist, Student Interview, and Situational Work
Assessment. (S-8, P-67, Brown)

121a
28. The service delivery grid provided for
consultation services with the speech language
pathologist and between the general education
teacher and paraprofessionals. The B grid
provides for student’s participation in
academic/electives with a general education
teacher and paraprofessional 2 x 80 minutes
per cycle and social studies with a general
education teacher and paraprofessional 2 x
80 minutes per cycle. The C grid contains
speech language with the speech language
pathologist 2 x 45 minutes per cycle (1 small
group and 1 individual session); science with a
special education teacher 2 x 80 minutes per
cycle; mathematics with a special education
teacher 2 x 80 minutes per cycle; academic
support with a special education teacher 4 x
80 minutes per cycle; reading comprehension
with a special education teacher 2 x 80 minutes
per cycle; English/language arts with a special
education teacher 2 x 80 minutes per cycle; and
Transition
with
a
special
education
teacher/transition
specialist/job
coach/
paraprofessional 2 x 80 minutes per cycle, (S-2,
P-15)
29. Katheryn Brown taught the vocational class for
the Access program during the 2014–2015
school year. She worked with students and
their families on their future vision to
determine what can be done in Access to
prepare them for their vision. She begins
meeting
with
eighth
grade
students
transitioning to the high school and then begins
working on the first day of their freshman year.

122a
If Student had attended Natick High School,
there would have been potential opportunities
for her to participate in job shadowing in her
career areas of interest.
Ms. Brown has
students who job shadow in their junior and
senior years with the hope that it will lead to an
internship in their area of interest.
Ms. Brown described the in-school vocational
program provided to students at Natick High
School.
She stated that there are many
opportunities throughout the school for
students to practice and explore vocational
skills. There are jobs in the cafeteria including
cookie packaging, refilling the coolers, refilling
the snack and chip displays, helping to run the
breakfast snack cart, preparing the ingredients
for a smoothie bar. There are students who
work in the library at tasks such as setting up
displays of books or setting up wall displays,
and IT tasks such as setting up PowerPoint
presentations which are shown on televisions
throughout the building. Ms. Brown could work
on finding a job for Student that would be
specific to her interests, such as cooking and
baking.
Student would not be required to receive her
vocational class after school in an extended day
program. The extended day option was one of
several that were presented to Parents by
Lindsey McGovern. (Brown)
30. Father rejected the IEP in full because it
contained an Access class for reading
comprehension which a Natick teacher told

123a
father had never been proposed for a student
before. Father assumed since it was never done
before it was a “program that was just being
developed” and was thus inappropriate for
Student. Additionally, Father stated that he
rejected the IEP because after seeing the
transitional program and talking to the
consultants he had hired, he did not think it was
appropriate. He attached a list of his concerns
regarding the IEP to his rejection. He rejected
Natick’s changing Student’s disability category
from Intellectual to Communication. He stated
that he had questions and concerns about the
block schedule, but was denied the opportunity
to have his questions and concerns addressed.
He stated that he had questions about the
extended day program.
He rejected the
exclusion of counseling services from the grid.
He rejected a number of goals. He stated that
the service delivery grid did not allow for nonacademic electives despite the extended day
program. He stated that the forty-five minute
speech language sessions would cause Student
to be late for other classes. (Father, P-26)
31. Throughout his testimony, Father referenced
conclusions he had drawn regarding the Access
program. He explained that he did not believe
that students in the Access program were
receiving grade level curriculum with
modifications because he did not believe the
students in the program would be taking the
MCAS. (Father, Vol. 1, pg. 93) He believed the
Access program was a “lifeskills” program and
would not prepare students to receive a diploma.

124a
(Father, Vol. 1, pg. 103) He believed that the
Access peers would not have been appropriate
peers for Student due to their behavioral issues.
(Father, Vol. 1, pg. 90)
32. James Franciose was the lead teacher for the
Access program for thirteen years, including the
2012–2013 and 2013–2014 school years.
(Franciose, Michelson) During the 2012–2013
school year there were three paraprofessionals
in his classroom and eight students. The
students in the program had primary
disabilities of intellectual impairment and
communication impairment.
There were
students with mild autism.
Mr. Franciose
explained that students in the Access program
are routinely moved into replacement classes
when their performance makes replacement
classes appropriate. He also reported that
several students who moved from his class to
replacement classes were able to pass the
regular MCAS and will receive a regular
diploma. Mr. Franciose testified that there
were not any students with significant
behavioral or emotional issues in his class
during the 2012–2013 school year. He recalled
one student who had occasional outbursts that
could be disruptive to the class, but they were
few and far between. He recalled another
student who had issues with verbal
communication
who
was
moved
into
replacement classes and was on track to receive
a regular diploma from Natick. He referenced
another student who entered the program with

125a
immature behavior and interrupted the class a
few times, but never enough to interrupt the
flow of a lesson. (Franciose)
33. Mr. Franciose found the IEP proposed for
Student for the 2012–2013 school year to be
appropriate based upon a record review and
attendance at one of Student’s Team meetings.
He further found the IEP proposed for Student
for the 2013–2014 school year to be appropriate.
He noted that when a student enters his
program he can get a better sense of their skill
level and can reconvene the Team if he believes
that replacement classes would be more
appropriate for the student. That has happened
many times. (Franciose)
34. Christine Michelson became the lead teacher of
the Access program in October 2014. There
were eleven students in the program during the
2014–2015 school year presenting with
disabilities including autism, intellectual
disability and traumatic brain injury. All the
students had some kind of communication
deficit as well. None of the students in the
program was non-verbal. There were four
paraprofessionals in the program. She consults
with Ms. Brown, the transitional coordinator,
daily. She described the Access program and
explained that typically all academic classes are
provided within the Access classroom, but
students have the opportunity to be placed in
replacement classes and small group general
education classes with paraprofessional
support.
Students have the ability to be
transferred from the Access classroom to a

126a
replacement or general education class at any
time in the school year. The decision to move a
student to a different classroom is very
individualized. Students are taught a modified
curriculum according to their abilities. The
curriculum is gleaned from the Massachusetts
Curriculum Frameworks and grade-level
Common Core. None of the students misses
time from academic classes to attend speech
language therapy.
35. Based upon her review of Student’s records,
Ms. Michelson believes that the IBP proposed
by the Natick Public School for the 2014–2015
school year was appropriate for Student and
that she would have appropriate peers within
the Access program. She believes that her
students
benefit
from
the
inclusion
opportunities provided because she has seen
them make friends with students from other
settings.
Ms. Michelson believes that the
behaviors that her students exhibit in class are
the same behaviors that are typical in all high
school classrooms. She stated that some of her
students can be disruptive, but that is true in
any class. She specified that one or two
students in her class may “call out an answer”,
but they are easily redirected. Ms. Michelson
believes that a blended program that includes
some Access classes, some replacement classes
and some general education classes with
support would be appropriate for Student.
36. Karen Liptak, special education teacher,
Natick, is a learning center teacher and teaches
small-group English classes, referred to as

127a
replacement
classes.
She
described
replacement classes as being designed for
students with communication disabilities,
language-based learning disabilities and
reading difficulties. The students can access
the regular curriculum, but they need material
to be presented at a slower pace. The classes
follow the Massachusetts curricular standards.
Replacement class sizes vary from five to ten
students. During the 2014–2015 school year
she had one paraprofessional in her English
replacement class. She has seen students
moved from the Access program into
replacement classes. Ms. Liptak met Student
and provided services to her during the summer
of 2012. She did not recall anything unusual
about Student’s attendance or participation in
the summer program. She noted that Student
was very amiable. Ms. Liptak believes that the
Access program would be an appropriate
placement for Student and that a blended
program providing for some replacement
classes with support would be appropriate. She
thinks the proposed transition program would
meet Student’s needs. From her experience
teaching replacement classes, she does not
believe other students’ behavior will interfere
with Student’s learning. (Liptak)
37. Ms. McGovern, Assistant Director of Student
Services, testified that the Team reconvened in
January 2015 to review the rejected IEP.
Ms. McGovern was concerned that Father had
indicated he had not previously had a chance to
ask all of his questions. That was not her

128a
impression of previous meetings, but she
wanted to make sure she was mindful of asking
if Father had any remaining questions. She
prepared a projection explaining four proposed
schedules that Student could have at Natick
High School. She later prepared written copies
of the sample schedules and sent them to
Parents. In order to accommodate Father’s
concern that Student be able to participate in
electives, she proposed providing Student’s
vocational class after school as part of an
extended school day. She was trying to balance
the Parents’ concern that Student spend some
time in the general education setting with the
proposed service delivery grid, which contained
a number of services, including double English
classes.10
38. Arlyn Roffman, Ph.D.11, has worked at Lesley
University for 37 years where she founded the
Threshold Program, a transition program for
young adults with disabilities, in 1981. She
reviewed Student’s relevant IEPs12, met
Ms. McGovern explained that Natick proposed that
Student participate in two English classes (one replacement
English class and one Access reading comprehension class)
because she enjoys writing and has some relative strength in that
area, but needs rigorous instruction in reading comprehension.
She would then be averaging one 80 minute English class per
day. (McGovern)
10

Dr. Roffman has a Ph.D. in developmental psychology, a
Master’s degree in learning disabilities, and is a licensed special
education teacher. (Rothman)
11

12

Dr. Roffman’s testimony indicates that the IEPs she
reviewed prior to the hearing may not have been complete copies

129a
Student in late 2012, and observed her at
Learning Prep twice. Dr. Roffman was critical
of Natick’s Action Plan in the IEP for the period
from May 2013–May 2014 (S-5) because it did
not contain goals and was not measurable.
Additionally, she opined that the transition
plan contained in S-4 was not properly filled
out. She stated that it was not clear what the
services would be from the IEP. Dr. Roffman
observed a career class at Natick High School in
October 2014 and noted some “very good
teaching.” She observed what was described to
her as students learning prevocational skills of
following directions and routine and following
through. She observed students getting cookies
and putting them into waxed paper bags to be
sold at lunch. She noted very good prompting
and no behavioral issues. She also observed
students wiping down fitness equipment in the
gym and shelving books at the library. She
noted that the cookie task would not be a
challenge or of interest to Student and she did
not think it would lead to any sort of competitive
employment. She did not find the length of the
eighty minute blocks at Natick to be
problematic for student and noted that students
could be helped to work on memory. She did not
think it would be appropriate for Student to
receive her transitional services in a 1:1 setting,
because she though Student would benefit more
from learning from peers and benefitting from
of the IEPs. (See testimony of Arlyn Roffman, Transcript, Vol. I,
pgs. 199–200)

130a
their lessons as well. She noted that Natick’s
2014 assessment of Student’s transitional needs
was adequate. Dr. Roffman concluded that
Natick did not provide appropriate transitional
planning or propose appropriate transitional
services for any of the IEP periods at issue.
39. Dr. Roffman wrote a report dated May 4,
201513. In it, she noted that an appropriate
transition program for Student should include
employment training that would prepare her for
competitive employment or for entry into
competitive employment. It should also contain
community living skills which would give her
hands-on experience in areas of need, and
contain postsecondary planning activities that
would give Student a chance to see what is out
there and assistance with making application to
programs. She did not think Student’s services
should be provided 1:1, but that Student should
be integrated as much as possible. Dr. Roffman
believes Student’s educational program should
be provided with students of differing
disabilities and the opportunity for some
inclusion. (Roffman)
40. Dr. Gibbons,
a
neuropsychologist
who
evaluated Student in 2012 and 2014, testified
that her recommendations for Student have
been consistent since 2012. She found that

She had not recently observed Student or evaluated her.
She knew that the report had to be available for the hearing in
this matter. She never attended a Team meeting and Natick had
never seen her report prior to the hearing. (Roffman)
13

131a
Student needs language-based instruction14
based on her significant language impairments
and requires small classes of six to eight
students. She requires multimodal instruction,
such as use of thinking maps and other graphic
organizers. She stated that Student requires
substantially separate special education classes
for her academics. Dr. Gibbons found Natick’s
four day block scheduling concerning because
she thinks Student requires daily repetition of
each class, especially classes like reading
comprehension, which is an area in which
Student requires additional support. She did
not think it would have been appropriate for
Student to be in mainstream classes at Natick
Public Schools after attending the McAuliffe
School. (Gibbons)
41. Suzanne Flax has an M.S. in speech/language
pathology and has provided Student private
weekly speech language services since 2007.
When Ms. Flax began working with her,
Student did not use a lot of verbal language and
was not initiating language. In June 2014 she
observed at Natick High School for
approximately two hours15.
42. Ms. Flax stated that students’ behaviors at
Learning Prep are less disruptive than the
She defined language based instruction entailing
material being presented at a slower pace, language is simplified,
there is a lot of repetition, additional clarification if needed, and
previewing and reviewing. (Gibbons)
14

Ms. Flax also “interviewed” Lindsey McGovern and Jim
Francoise. (Flax)
15

132a
students’ behavior in the Access program based
upon spending one hour in an Access classroom
in Natick. She further stated that there are no
peers in the Access program with whom
Student would have been able to make a social
connection.
She testified that she was
absolutely positive that Student would not have
made any friends in the Access program given
the level of disability that she observed and the
lack of interaction of the students with one
another. Ms. Flax noted that since Student has
been attending Learning Prep she has been
using significantly more verbal language and
initiating more language. She believes this is
because she is interacting with other children
who have verbal language at or above her level.
She believes Student requires a consistent
schedule from day to day due to her language
processing issues and short and long term
memory deficits. (Flax) Dr. Imber also noted
concern about Natick’s block schedule. He
thought that fact that the schedule rotates
would be challenging for Student. (Imber)
43. Although in 2012 Ms. Flax recommended a
general education placement for Student, in
2014 she recommended a small substantially
separate, language-based, program for her. She
stated that her reason for changing her
recommendation is because Student has made
language gains. She no longer believes that a
general
education
program
would
be
appropriate for Student. She also does not
believe that Student would benefit from some
inclusion opportunities during her day, not even

133a
for electives. She believes this because Student
is “developing and growing and flourishing” at
Learning Prep. (Flax)
44. Steven Imber, Ph.D., initially evaluated
Student in 2009 at Parents’ request. He tested
her again in 2010, 2012, and 2014.
Additionally, Parents have asked Dr. Imber to
be a consultant for them and to observe Student
and consult with her teachers. When Student
was at McAuliffe, he observed once or twice per
year and provided feedback to the teachers
regarding what was working well and not so
well. He has continued in that role while
student has been at Learning Prep. (Imber)
In 2012, when Dr. Imber’s first report was
written, he was recommending that Student
continue to attend high school in an inclusive
environment. According to Dr. Imber, after the
July 2012 Team meeting when Natick’s only
proposal was for the Access program, Parents
decided they had to look at other options,
because they did not think Access was
appropriate. Student was accepted at Learning
Prep.
Dr. Imber believes Student is doing very well at
Learning Prep. Although he still supports the
notion of inclusion, he thinks it would be
disruptive to move Student from that setting at
this point. He is not advocating for inclusion at
this point because Student has had three
successful years at Learning Prep. (Imber)

134a
FINDINGS AND CONCLUSION:
Student is an individual with a disability, falling
within the purview of the Individuals with Disabilities
Education Act (IDEA)16 and the state special
education statute.17 As such, she is entitled to a free
appropriate public education (FAPE). Neither her
status nor her entitlement is in dispute.
Under the Individuals with Disabilities Education
Act (IDEA) and Massachusetts law, children with
disabilities have the right to a FAPE. (20 U.S.C.
§ 1400(d); (M.G.L. ch. 71B.) A FAPE means special
education and related services that are available to the
child at no charge to the parent or guardian, meet
state educational standards, and conform to the child’s
IEP, (20 U.S.C. § 1401(a)(9).) “Special education” is
instruction specially designed to meet the unique
needs of a child with a disability. (20 U.S.C. § 1401
(a)(29).)
A FAPE is provided when the school district
implements an IEP that is “‘reasonably calculated’ to
insure that the child receives meaningful ‘educational
benefits’ consistent with the child’s learning
potential.”
Hunt v. BSEA & City of Newton,
No. 08-10790-RGS, 2009 U.S. Dist. LEXIS 79775, at
*4 n.8 (D. Mass. Sept. 4, 2009) (quoting Bd. of Educ. of
Hendrick Hudson Central Sch. Dist. v. 16.)
While an IEP must conform to the procedural and
substantive requirements of the IDEA, “the obligation
to devise a custom tailored IEP does not imply that a
disabled child is entitled to the maximum education
16

20 USC 1400 et seq.

17

MGL c. 71B.

135a
benefit possible.” Lessard, v. Wilton-Lyndenborough
Cooperative School District et.al., 518 F.3d 18 at 23.
There are two parts to the legal analysis of a school
district’s compliance with the IDEA. First, the
hearing officer must determine whether the district
has complied with the procedures set forth in the
IDEA. (Rowley, supra, 458 U.S. at pp. 206–207.)
Second, the hearing officer must decide whether the
IEP developed through those procedures was designed
to meet the child’s unique needs, and was reasonably
calculated to enable the child to receive educational
benefit. (Ibid.)
An IEP is not judged in hindsight; its
reasonableness is evaluated in light of the information
available at the time it was promulgated. Roland M.
v. Concord Sch. Comm., 910 F.2d 983, 992 (1st Cir.
1990)
The burden of persuasion in an administrative
hearing challenging an IEP is placed upon the party
seeking relief. Schaffer v. Weast, 546 U.S. 49, 126 S.
Ct. 528, 534, 537 (2005) In this case, Parents are the
party seeking relief, and thus have the burden of
persuading the hearing officer of their position.
With the foregoing legal framework in mind, I turn
to the issues before me. First, whether Natick
complied with Student’s IEP regarding Student’s
extended year services for the summer of 2012. Natick
does not dispute Parents’ claims that its staff was not
aware that Student would be attending its program on
the first day. Parents do not dispute the testimony of
Natick’s staff that Student attended the remainder of
the summer program, participated appropriately, and
completed work. The purpose of extended year

136a
services is to prevent substantial regression. 603 CMR
28.05(4)(d). Parents did not provide any testimony to
suggest that Student regressed in her skills as a result
of not receiving services for one day of her summer
program. Although Father testified that Student cried
and was emotionally upset about not receiving
services on the first day, he did not provide any
credible evidence that Student was denied a free
appropriate public education. Thus, there is no basis
for awarding compensatory services to Student.
I turn now to the appropriateness of the IEP for the
period from 2012–2013. At the time Natick proposed
the IEP Student had just completed three years at
McAuliffe where she had been placed by her parents.
While at McAuliffe, although Student received
academic services in a general education setting, she
did so with the assistance of a full time one-to-one
assistant who also acted as a one-to-one tutor as
needed. (Coellner) Although none of the witnesses
testified about the level of restrictiveness of such a
placement, the hearing officer took note of it. Parents
and their witnesses argued that Natick’s proposed IEP
placing Student in the Access program was overly
restrictive because it did not provide for Student’s
education within the general education setting.
However, it was less restrictive than Student’s
McAuliffe placement because it did not provide for the
assistance of a one to one aide throughout the day. It
provided Student the opportunity to independently
access academic services in a program specifically
designed for students with profiles similar to
Student’s. If Parents were truly seeking a less
restrictive setting in Natick, they could have accepted
Natick’s offer to place Student in all replacement

137a
classes as relayed to them by Gina Dalan’s letter dated
June 5, 2012.
The evidence shows that Natick reviewed all
information available to them at the time of the May
and July 2012 Team meetings, including results of
Student’s then-most recent testing, the verbal reports
of service providers from McAuliffe, Parents’
suggestions and concerns, and the previous BSEA
decision which had upheld the appropriateness of an
Access program for Student. (McGovern, S-30)
One of Parents’ stated reasons for rejecting the IEP
was that the goals in the proposed IEP were the same
goals contained in the McAuliffe IEP in the inclusion
setting, and Father thought the goals should change if
the setting was changing. (S-6, Father) As Father
testified that he does not have any credentials in
education, this reason is not considered valid by the
hearing officer. Further, Parents could have limited
their rejection to the goals of the IEP without rejecting
it in its entirety. Father also believed that the hours
of service in the proposed IEP were decreasing from
those provided in the prior IEP. (S-6) He did not
present any credible evidence to support that
presumption. Dr. Imber was primarily concerned that
the proposed IEP placed Student in Natick’s most
restrictive environment after she had participated in
a primarily inclusive environment [McAuliffe]. As
stated above, based on the evidence presented Natick’s
proposal for Student emerges as less restrictive than
Student’s placement at McAuliffe. Additionally, as
noted above, Student had the option of enrolling in all
replacement classes at Natick High School. Dr. Imber
affirmed that this offer had been made to Parents
during a May 2012 meeting. (Imber)

138a
Finally, the Parents indicated that Natick’s
proposal for Student’s placement in the Access class
would be inappropriate because it would not provide
Student with access to the general curriculum and she
would thus be unable to pass MCAS. Again, this was
an assumption made by Parents and their evaluators
that was not supported by the evidence before me.
Mr. Franciose, the lead teacher of the Access
program for most of the time period relevant to this
hearing, testified that students in the Access program
are routinely placed in replacement classes when their
abilities and classroom performance indicate it is
appropriate. Although Parents did not have the
opportunity to speak to Mr. Franciose at the time that
the IEP was proposed, they were able to ask questions
to other Natick Team members. Ms. Dalin, Natick’s
then-Special Education Director sent Parents a letter
dated June 6, 2012, which among other things,
informed them that she was available to answer
questions at any time until June 22, 2012. Parents
could have raised questions to Ms. Dalin or other
Natick Team members regarding the ability of
Student to access the general curriculum within the
Access program.
Parents also point to the fact that they were not able
to observe the Access program prior to the beginning
of the 2012–2013 school year. Natick did not dispute
the fact that Parents had not observed the program
prior to the commencement of the school year.
However, in addition to Team meetings in May and
July where the program was described and Parents
were provided opportunities to ask questions about

139a
the program18, Natick provided Parents opportunities
to address any and all questions to Ms. Dalin or
Mr. Luff. Dr. Imber was not able to specify what
questions Parents still had after the July meeting
other than not knowing which specific electives would
be available for Student. Dr. Imber stated that Natick
informed Parents that the guidance counselors could
provide specific information about elective classes
when staff returned to school in late August. Further,
Ms. Dalin suggested that Parents and their
consultants visit the program early in the fall and
offered to convene the Team within the first couple of
weeks of school to adjust the IEP as necessary.
Father’s testimony that Parents had to make a
decision about whether to place Student in Natick
prior to the return of the guidance counselors from
summer break was unpersuasive. The evidence
suggests Parents may have made a decision to place
Student at Learning Prep as early as June 2012.
Ms. Dalin sent an e-mail to Katie Clark of McAuliffe
on June 5, 2012 requesting copies of Student’s
“transition paperwork.”
Ms. Clark responded to
Ms. Dalin in an e-mail dated June 6, 2012 in which she
noted, “the transition plan was written with the
anticipation that she [Student] was attending
Learning Prep High School.” (P-75, pg. 10)
Based upon the foregoing, I find that Natick’s
proposed IEP for the period from 7/27/2012 – 4/4/2013
18

The Team attendance sheet from the July 27, 2012 shows
that Tim Luff, Lindsey McGovern, Paul Tagliapietra (Asstistant
Director of Student Services), Susan Balboni (Assistant Director
of Student Services), and Rose Bertucci (Principal of Natick High
School) were all present at the meeting.

140a
was reasonably calculated to provide Student with a
free appropriate public education in the least
restrictive environment.
Natick proposed an IEP for the period from 2013–
2014 that was substantially similar to the IEP it
proposed the prior year. Student had attended
Learning Prep pursuant to a unilateral parental
placement during the prior school year and there was
not any new information about Student for the Team
to consider. Father’s rejection letter stated that he
was rejecting the IEP for the same reasons that he had
rejected the prior IEP. For the reasons that I found
that the 2012–2013 IEP was reasonably calculated to
provide Student with a free appropriate public
education in the least restrictive environment, I also
find that the IEP proposed for the period from 2013–
2014 was reasonably calculated to provide Student
with a free appropriate public education in the least
restrictive environment.
Next I turn to the appropriateness of the IEPs
proposed for Student during the period from 2014–
2015. The first IEP proposed by Natick during this
time period was the IEP for the period from April 15,
2014 through April 15, 2015. At that point in time,
Natick had sent Parents a request for consent to
complete Student’s three-year evaluation. Parents
had not yet provided consent due to questions
regarding the assessments. The Team convened
without having updated information to prevent
expiration of the IEP. It was proposed with the
understanding that the Team would reconvene to
review the results of the three-year evaluation and
changes could be made to the IEP at that time.
(McGovern)

141a
The next IEP proposed for that time period was the
IEP for the period from June 13, 2014–June 13, 2015.
This IEP contained a number of changes from the
previous IEPs, including a proposal for Student to
participate in a general education class and some
replacement classes. Ms. McGovern credibly testified
that the changes to the IEP were made based upon the
review of Student’s evaluations and some helpful
information provided by Learning Prep, including
Educational Assessment Forms A and B. Father
rejected the IEP in part because a transition
assessment had not been done and he believed such
assessment would result in changes to the
benchmarks and objectives of the IEP. Additionally,
he believed that the proposed services could not be
provided within the four day cycle used at Natick High
School and thus, Student would not receive her speech
language services. He further rejected the IEP
because it continued the proposal that Student attend
some Access classes and proposed that Student take
the MCAS-alt in math.
I find that despite Father’s objections, the IEP was
reasonably calculated to provide Student with a free
appropriate public education in the least restrictive
environment. The record contains no support for
Father’s conclusion that Student’s services could not
be provided as written and that she would not receive
her speech language support. While it is true that
Natick had not yet conducted a transitional evaluation
and might have adjusted objectives and benchmarks
after conducting it, that has no bearing on the
appropriateness of what was proposed by Natick. In
fact, the record shows that Natick did later conduct a
transitional evaluation and propose and update IEP.

142a
Although Father continued to reject Student’s
placement in any Access classes, the credible evidence
shows that placement in Access math and reading
comprehension classes was appropriate for Student.
Ms. McGovern credibly testified that Student was
placed in the Access math class to address an area
which has always been an area of significant need for
Student. The Team proposed providing Student with
two different English classes. To address an area of
significant need reading comprehension would be
provided within the Access setting, where she would
receive additional support. And, recognizing that
Student has an interest and relative strength in
writing, participation in a replacement English class.
This proposal would also address a concern raised by
Father, Ms. Flax, and Dr. Imber regarding the
rotating block scheduling at Natick High School19, as
Student would receive some instruction in
English/language arts for eighty minutes every cycle.
Both Ms. Liptak and Ms. Cymrot credibly testified
that this “blended program” that Natick was
proposing, whereby Student would receive some
services in the more restrictive substantially separate
Access program, some services in the replacement
classes, and some services in the general educational
with paraprofessional support, would be appropriate
for Student. Ms. Liptak noted that Student would
benefit from the opportunity to interact with different
Although Dr. Imber and Ms. Flax testified regarding
their concerns about the appropriateness of the rotating block
schedule due to Student’s memory issues, this issue was not
formally raised to the Team until Father’s rejection of the IEP in
November 2014. Thus, it could not have formed the basis of
Parents’ rejection of prior IEPs. (P-26)
19

143a
peers in the different classes. She also noted that
Student would benefit from working with peers with
writing, social and reading strengths within the
different settings. (Liptak) Ms. Cymrot believed the
blended program was appropriate for Student because
it would allow her areas of weakness to be addressed
intensely (within the Access program) while allowing
her to receive content instruction in the less restrictive
replacement classes. (Cymrot)
With respect to the issue of the MCAS-alt being
proposed
for
Student,
Ms. McGovern
and
Mr. Franciose credibly testified that students within
the Access program often take the regular MCAS
exam. They both noted that students are routinely
moved from Access classes to replacement classes
where they can receive instruction geared toward
passing the MCAS.
Based upon the foregoing, I find that the IEP
proposed by Natick for the period from June 13, 2014June 13, 2015 was reasonably calculated to provide
Student with a free appropriate public education in
the least restrictive environment.
Next, I turn to the appropriateness of the IEP
proposed for the period from November 14, 2014
through June 13, 2015. I find that this IEP continued
to offer appropriate services to address all of Student’s
areas of needs. The IEP contained many of the same
services as the prior IEP, but contained additional
transitional services.
Father, Ms. Flax, and
Ms. Coellner criticized the program because it
proposed that Student receive her transition class in a
1:1 setting after school. However, Ms. McGovern
testified that she presented several different

144a
scheduling options to Parents to accommodate the
number of services proposed for Student. The option
of providing an extended school day was presented as
a way to allow Student to continue to receive
non-academic general education electives during the
school day while still providing her with all the
services contained in her service delivery grid. I find
that it was appropriate for Natick to propose extended
day services as one option for Parents to choose from
to enable to Student to receive more inclusion
opportunities during the school day, while still
receiving all of the transition services she requires.
Parents could have chosen one of the other scheduling
options offered for Student to receive her necessary
IEP services.
Parents relied primarily on Dr. Roffman for their
conclusion that the transition services proposed for
Student were not appropriate. Most of Dr. Roffman’s
criticisms of the transition services Natick proposed
related to her opinion that forms were not filled out
correctly. However, she found that the transition
assessment done by Natick was adequate. Most of her
criticism of Natick’s vocational services centered
around her belief that it was inappropriate for Student
to receive her vocational services as part of an
extended day in a 1:1 setting. As described above, the
proposal for Student to receive after school services
was just one of many options presented to Parents and
thus, is not a basis for finding vocational services to be
inappropriate.
Dr. Roffman’s other substantive
criticism of Natick’s proposed vocational services was
that Student would not receive services tied to her
interests. Ms. Brown addressed this concern when she
described how Natick individualizes students’

145a
programs to align with their interests. She stated that
if she were to begin working with Student she would
first seek to find her a task relating to her noted
interests in cooking and baking. (Brown)
Parents also point to Natick’s decision to change
Student’s disability category from intellectual to
communication. Although they clearly disagree with
this decision, they have not pointed to any impact that
this decision has or will have on Student’s service
delivery. Natick staff credibly testified that the
change of disability category will not change the way
in which services are delivered to Student and Parents
did not provide any evidence to the contrary. (Cymrot,
Karian)
Based upon the foregoing, Parents have not met
their burden of showing that the IEP proposed for
Student for the period from November 14, 2014 –
June 13, 2015 was not reasonably calculated to
provide Student with a free appropriate public
education in the least restrictive environment.
I now turn to the Parents’ claims of procedural
violations. The record is unclear as to what procedural
violations Parents believe Natick committed. There
were many references throughout the Parents’ case to
Parents and/or their experts being unable to obtain
answers to their questions. The credible evidence
before me does not support any claim that Parents
may be alleging that they were unable to receive
information and thus participate in the Team’s
decision making. The record shows that Natick
convened many Team meetings during the course of
the period of time at issue during which Parents and
their consultants had opportunities to ask questions.

146a
Additionally, in 2012, Ms. Dalin provided Parents
with contact information to enable them to ask her or
her predecessor questions regarding the proposed
placement. Ms. McGovern and Mr. Franciose made
themselves available on one occasion to specifically
address Parents (and their consultant’s) questions
about the program. Parents did not present any
evidence of an instance in which they were not able to
participate in the Team process or were unable to get
answers to their questions. Although Dr. Imber made
several references to not being able to get his questions
answered, he was unable to point to a specific example
of this. I find that Parents were provided with
opportunities to participate in the Team process. I am
not aware of any other instances in the record in which
Parents claim Natick committed any procedural
violations. Parents have not met their burden of
showing that Natick has committed any procedural
violations.
I now address Parents’ claims of Natick’s engaging
in discrimination or retaliation in violation of
Section 1983 and Section 504. Again, the record is
unclear as to the basis of Parents’ allegations in this
regard. Thus, Parents have not met their burden of
showing that Natick engaged in discrimination.
Additionally, the BSEA does not have jurisdiction over
claims of discrimination under Section 1983.
Finally, Parents seek reimbursement for their
unilateral placement of Student at Learning Prep for
the 2012–2013, 2013–2014, and 2014–2015 school
years. As I have found the IEPs proposed by Natick to
be reasonably calculated to provide Student with a
free appropriate public education in the least

147a
restrictive environment, it is not necessary to address
the appropriateness of Learning Prep.
In reaching the above decision I did not rely on the
testimony of Ms. Flax, as I did not find her to be a
credible witness. Although she had appropriate
credentials and experience as a speech and language
pathologist, the statements she made during her
testimony caused her to lose credibility. For example,
she steadfastly stated that Student would not benefit
at all from any inclusion. This statement was not
supported by any other witness for either party, nor
did it comport with Ms. Flax’s own prior
recommendations for Student’s
programming.
Additionally, she stated that she was absolutely
certain that Student would not have made any friends
in the Access program, had she attended. This is a
statement is so speculative as to carry no evidentiary
value.
I also did not rely upon Dr. Imber’s testimony. A
careful review of his testimony shows that his current
recommendations were primarily based upon
Student’s performance at Learning Prep. Although he
did not share Ms. Flax’s belief that Student would not
receive any benefit from inclusion, he did previously
support an inclusive placement for Student yet
currently stated that he no longer believed that
inclusion was as important for Student based upon her
performance at Learning Prep. Based upon that
opinion, it appears that Dr. Imber has changed his
recommendations to align with which ever placement
she was in at the time he was asked to state his
opinion.

148a
I did not rely upon the most recent reports
submitted by Ms. Flax or Dr. Imber, as they were first
presented to Natick as exhibits in the hearing and the
Team did not have the opportunity to review them
prior to the hearing. Likewise, I did not rely upon the
written report of Dr. Roffman as it was not received by
Natick prior to the hearing.
ORDER
Based upon the foregoing, I find that Natick
complied with Student’s IEP during the summer of
2012 and find no basis for awarding compensatory
services to Student.
I find that the IEPs proposed by the Natick Public
Schools covering the 2012–2013, 2013–2014 and
2014–2015 school years were reasonably calculated to
provide Student with a free appropriate public
education in the least restrictive environment.
I have found no evidence of procedural violations
that resulted in a denial of a free appropriate public
education to Student.
I have found no evidence that Natick discriminated
against Student/Parents under sections 1983 or 504.
By the Hearing Officer,

Catherine M. Putney-Yaceshyn
Dated: July 24, 2015

149a
COMMONWEALTH OF MASSACHUSETTS
BUREAU OF SPECIAL EDUCATION APPEALS
EFFECT OF BUREAU DECISION AND RIGHTS
OF APPEAL
Effect of the Decision
20 U.S.C. s. 1415(i)(l)(B) requires that a decision of
the Bureau of Special Education Appeals be final and
subject to no further agency review. Accordingly, the
Bureau cannot permit motions to reconsider or to
re-open a Bureau decision once it is issued. Bureau
decisions are final decisions subject only to judicial
review.
Except as set forth below, the final decision of the
Bureau must be implemented immediately. Pursuant
to M.G.L. c. 30A, s. 14(3), appeal of the decision does
not operate as a stay. Rather, a party seeking to stay
the decision of the Bureau must obtain such stay from
the court having jurisdiction over the party’s appeal.
Under the provisions of 20 U.S.C. s. 1415(j), “unless
the State or local education agency and the parents
otherwise agree, the child shall remain in the
then-current educational placement,” during the
pendency of any judicial appeal of the Bureau decision,
unless the child is seeking initial admission to a public
school, in which case “with the consent of the parents,
the child shall be placed in the public school program”.
Therefore, where the Bureau has ordered the public
school to place the child in a new placement, and the
parents or guardian agree with that order, the public
school shall immediately implement the placement

150a
ordered by the Bureau.
School Committee of
Burlington, v. Massachusetts Department of
Education, 471 U.S. 359 (1985). Otherwise, a party
seeking to change the child’s placement during the
pendency of judicial proceedings must seek a
preliminary injunction ordering such a change in
placement from the court having jurisdiction over the
appeal. Honig v. Doe, 484 U.S. 305 (1988); Doe v.
Brookline, 722 F.2d 910 (1st Cir. 1983).
Compliance
A party contending that a Bureau of Special
Education Appeals decision is not being implemented
may file a motion with the Bureau of Special
Education Appeals contending that the decision is not
being implemented and setting out the areas of
non-compliance. The Hearing Officer may convene a
hearing at which the scope of the inquiry shall be
limited to the facts on the issue of compliance, facts of
such a nature as to excuse performance, and facts
bearing on a remedy.
Upon a finding of
non-compliance, the Hearing Officer may fashion
appropriate relief, including referral of the matter to
the Legal Office of the Department of Education or
other office for appropriate enforcement action.
603 CMR 28.08(6)(b).
Rights of Appeal
Any party aggrieved by a decision of the Bureau of
Special Education Appeals may file a complaint in the
state superior court of competent jurisdiction or in the
District Court of the United States for Massachusetts,
for review of the Bureau decision.
20 U.S.C.
s. 1415(i)(2).

151a
An appeal of a Bureau decision to state superior
court or to federal district court must be filed within
ninety (90) days from the date of the decision.
20 U.S.C. s. 1415(i)(2)(B).
Confidentiality
In order to preserve the confidentiality of the
student involved in these proceedings, when an appeal
is taken to superior court or to federal district court,
the parties are strongly urged to file the complaint
without identifying the true name of the parents or the
child, and to move that all exhibits including the
transcript of the hearing before the Bureau of Special
Education Appeals, be impounded by the court. See
Webster Grove School District v. Pulitzer Publishing
Company, 898 F.2d 1371 (8th Cir. 1990). If the
appealing party does not seek to impound the
documents, the Bureau of Special Education Appeals,
through the Attorney General’s Office, may move to
impound the documents.
Record of the Hearing
The Bureau of Special Education Appeals will
provide an electronic verbatim record of the hearing to
any party, free of charge, upon receipt of a written
request. Pursuant to federal law, upon receipt of a
written request from any party, the Bureau of Special
Education Appeals will arrange for and provide a
certified written transcription of the entire
proceedings by a certified court reporter, free of
charge.

